<html>
<title> - TRIBAL TRANSPORTATION: PAVING THE WAY FOR JOBS, INFRASTRUCTURE, AND SAFETY IN NATIVE COMMUNITIES</title>
<body><pre>[Senate Hearing 112-424]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-424
 
  TRIBAL TRANSPORTATION: PAVING THE WAY FOR JOBS, INFRASTRUCTURE, AND 
                      SAFETY IN NATIVE COMMUNITIES

=======================================================================


                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 15, 2011

                               __________

         Printed for the use of the Committee on Indian Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
73-248                 WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. AKAKA, Hawaii, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN HOEVEN, North Dakota
MARIA CANTWELL, Washington           MIKE CRAPO, Idaho
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Loretta A. Tuell, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 15, 2011...............................     1
Statement of Senator Akaka.......................................     1
Statement of Senator Barrasso....................................    15
Statement of Senator Franken.....................................    18
Statement of Senator Hoeven......................................    37
Statement of Senator Johanns.....................................     2
Statement of Senator Udall.......................................    20

                               Witnesses

Baxter, John R., Associate Administrator, Office of Federal Lands 
  Highway, Federal Highway Administration, U.S. Department of 
  Transportation; accompanied by: Robert Sparrow, Indian 
  Reservation Roads Program Manager..............................     3
    Prepared statement...........................................     5
Chaco, Paulson, Division Director, Navajo Nation Division of 
  Transportation.................................................    61
    Prepared statement...........................................    63
Healy, C. ``John'' Sr., President, InterTribal Transportation 
  Association....................................................    29
    Prepared statement...........................................    30
Hostler, Jacque, Chief Executive Officer, Cher-Ae Heights Indian 
  Community of the Trinidad Rancheria............................    65
    Prepared statement...........................................    66
Keel, Hon. Jefferson, President, National Congress of American 
  Indians........................................................    21
    Prepared statement...........................................    23
Martel, Hon. Wes, Vice Chairman, Eastern Shoshone Business 
  Council; accompanied by Jim Shakespeare, Chairman, Northern 
  Arapaho Business Council, John P. Smith, Transportation 
  Director, Shoshone and Arapaho Tribes, and Jim Garrigan, 
  Transportation Planner, Red Lake Band of Chippewa Indians......    50
    Prepared statement with attachments..........................    53
Murphy, Hon. Charles W., Chairman, Standing Rock Sioux Tribe; 
  accompanied by Pete Red Tomahawk, Transportation Director......    39
    Prepared statement...........................................    40
Tsosie, Paul, Chief of Staff, Office of the Assistant Secretary 
  for Indian Affairs, Department of the Interior; accompanied by 
  Leroy Gishi, Chief, Division of Transportation, Bureau of 
  Indian Affairs, U.S. Department of the Interior................    10
    Prepared statement...........................................    11

                                Appendix

Chaliak, Sr., Zechariah C., President and Wassilie Pleasant, 
  Secretary, Native Village of Nunapitchuk (IRA Council) Tribe, 
  prepared statement.............................................    81
Dorris, Julia F., President and Steeves, Loreen J., Vice 
  President, Village of Kalskag Traditional Council, joint 
  prepared statement.............................................    78
Greendeer, Jon, President, Ho-Chunk Nation, prepared statement...    84
Hall, Tex ``Red Tipped Arrow'', Chairman, Mandan, Hidatsa, 
  Arikara, Three Affiliated Tribes, Great Plains Tribal 
  Chairman's Association, prepared statement with attachments....    87
Hoffman, Michael, Vice President, Association of Village Council 
  Presidents (AVCP), prepared statement..........................    75


  TRIBAL TRANSPORTATION: PAVING THE WAY FOR JOBS, INFRASTRUCTURE, AND 
                      SAFETY IN NATIVE COMMUNITIES

                              ----------                              


                      THURSDAY, SEPTEMBER 15, 2011


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:15 p.m. in room 
628, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. The Committee will come to order.
    Aloha and welcome to the Committee's oversight hearing on 
Tribal Transportation: Paving the Way for Jobs, Infrastructure, 
and Safety in Native Communities. And I must tell you that we 
are very timely on this hearing in Washington, and would really 
like to move on it.
    Investment in transportation and infrastructure projects is 
critical to bringing economic development opportunities to 
States and local jurisdictions across the Country. Nowhere is 
this more evident than in Indian Country.
    As you can see by the chart we have here, the Indian 
Reservation Roads program has grown significantly since the 
last Surface Transportation bill was enacted, going from 
approximately 63,000 road miles in 2005 to nearly 144,000 road 
miles today. The current transportation needs of Tribes have 
grown along with the program. Current backlog to bring the road 
inventory to adequate conditions is approximately $69 billion. 
One in every four BIA bridges is structurally deficient. And 
the annual fatality rate on Indian reservation roads continues 
to be three times the national average.
    These are the roads that Native children rely on to get to 
school, that emergency responders must navigate, and that 
Tribal and local employees drive to get to and from work. The 
President's proposed American Jobs Act has a strong emphasis on 
investments for highway projects, transit, highway safety and 
other transportation-related activities. It is critical that 
Tribal transportation programs be part of any surface 
transportation reauthorization considered by the Congress.
    Tribes must be empowered to build the programs in a way 
that makes Tribal members safer, brings jobs and economic 
development to Native communities and allows Tribal governments 
to work in partnership with State and local governments. This 
last part, working with State and local governments, is 
crucial. The roads in Native communities serve the whole 
community, not just the Tribal members. Improvements to Tribal 
roads benefit everyone. And investments in infrastructure bring 
jobs and economic development opportunities to Tribal and non-
Tribal members alike.
    In May, this Committee held a Tribal transportation 
roundtable, which was attended by over 65 Tribal leaders, 
transportation planners and congressional staff. We will use 
the information obtained at that roundtable, along with this 
hearing record, to write a Tribal transportation bill.
    So I encourage any of you that are here today and any other 
interested parties to submit written testimony for the record 
with recommendations. The hearing record will remain open for 
two weeks from today.
    Now I would like to call on Senator Johanns for any opening 
remarks he may have.

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Mr. Chairman, thank you very much.
    My remarks will be relatively brief today. I can only be 
here a rather short period of time, so I am kind of anxious to 
get the testimony of the witnesses started.
    The Chairman has outlined the challenge that we face, I 
think, very, very well. We want to do all we can as we look 
forward to the next Highway Bill and the bill specifically 
dealing with the needs in Indian Country. We want to make 
absolutely sure that we are efficiently using the resources 
that we have.
    As I look out there, and I think about funding for various 
programs including the one that this hearing is devoted to, I 
just have to reach the conclusion that money will be hard to 
come by. It will be a constrained process, if you will, maybe 
more constrained than we have seen in a long time.
    So what I would ask our witnesses to think about, whether 
it is in the testimony today or whether it is in a written 
submission after the testimony, is what is not working well 
that you feel is chewing up resources. For example, as I was 
reading the information for today's hearing, it just occurs to 
me that when you deal with projects in Indian Country, you are 
often dealing with a number of bureaucracies. And that costs 
money and that chews up resources.
    Is there something that we can focus on to help you and to 
help those who are trying to provide the best transportation 
they can? Is there something we can focus on that would be 
helpful to streamline that process, to make that process easier 
to manage?
    The second area that I have a real interest in, being a 
former governor, not every Tribe has significant resources in 
terms of staff and engineering. Typically the Tribes are trying 
to do so much, oftentimes with volunteers in many cases. So I 
am curious to know about the interrelationship with the Tribes 
in their States when it comes to transportation planning, grant 
funding, whatever it is and how we might facilitate that 
relationship, if that is not working well.
    With that, I just want to say to all the witnesses who are 
here, thank you very much. This is an opportunity for you to 
educate us, and I look forward to your testimony. Thank you.
    The Chairman. Thank you very much, Senator Johanns.
    We look forward to hearing from the witnesses who are with 
us today. I appreciate your commitment to this issue and for 
sharing your views with us today.
    Our first panel of witnesses today is Mr. John Baxter, the 
Associate Administrator for the Office of Federal Lands, 
Federal Highway Administration at the Department of 
Transportation. Mr. Baxter is accompanied by Mr. Robert 
Sparrow, the Indian Reservation Roads Program Manager at the 
Department of Transportation.
    Mr. Paul Tsosie, Chief of Staff in the Office of the 
Assistant Secretary for Indian Affairs at the Department of 
Interior. Mr. Tsosie is accompanied by Mr. Leroy Gishi, Chief 
of the Division of Transportation, Bureau of Indian Affairs, 
Department of Interior.
    I welcome all of you. Mr. Baxter, will you please proceed 
with your testimony?

            STATEMENT OF JOHN R. BAXTER, ASSOCIATE 
ADMINISTRATOR, OFFICE OF FEDERAL LANDS HIGHWAY, FEDERAL HIGHWAY 
ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION; ACCOMPANIED 
                          BY: ROBERT 
           SPARROW, INDIAN RESERVATION ROADS PROGRAM 
                            MANAGER

    Mr. Baxter. Chairman Akaka and Senator, thank you very much 
for inviting me to testify today on transportation issues 
facing Native American communities and the programs the Federal 
Highway Administration administers that provide support to 
Tribes to address these issues.
    Accompanying me today is Mr. Robert Sparrow, he is our 
Indian Reservation Roads Program Manager.
    The FHWA is committed to improving safe transportation 
access to and through Tribal lands through our stewardship and 
oversight responsibilities for the Federal lands and the 
Federal-aid programs. The Indian Reservation Roads program, 
which is administered by FHWA in partnership with the Bureau of 
Indian Affairs, serves 565 federally-recognized Indian Tribes 
and Alaska Native villages in 32 States. In many cases, this 
program is the only source of funds for transportation 
improvements.
    Today I would like to focus on three key areas where our 
agency has been working to address the transportation 
challenges in Indian Country. These include safety, outreach 
and capacity building and infrastructure. Despite reaching 
record low traffic deaths for the past two years on all of our 
Nation's roads, the annual fatality rate in Indian Reservation 
Roads is still more than two times the national average. To 
address this serious problem, FHWA has cosponsored 11 summits 
in the past two years to focus on this issue and bring safety 
partners together. Two additional State-based summits, as well 
as another national Tribal safety summit are planned for the 
near future.
    The agency also continues to implement SAFETEA-LU programs, 
such as the Highway Safety Improvement Program and the Safe 
Routes to School Program, which benefit Tribes as well as 
States, and are aimed at reducing traffic fatalities and 
injuries on public roads through the implementation of 
infrastructure improvements.
    FHWA also supports Tribes through outreach and capacity 
building programs. We maintain seven Tribal technical 
assistance program centers that provide a variety of training 
and professional development programs, as well as technical 
publications and training materials related to transportation 
planning, safety, the environment, infrastructure design, 
construction and project management and other topics.
    Infrastructure condition remains a significant challenge in 
Indian Country. The Indian Reservation Roads system consists of 
over 140,000 miles of roads that link housing, schools, 
emergency services and places of employment and facilitate 
tourism and resource use. Billions of vehicle miles are 
traveled annually on the Indian Reservation Road system, even 
though it is among the most rudimentary of any transportation 
network in the U.S.
    Just over 60 percent of the network is unpaved, and about 
27 percent of the bridges are classified as deficient. These 
conditions make even the most basic travel difficult for 
residents of Tribal communities.
    The Recovery Act supplemented SAFETEA-LU funding for Tribal 
communities by providing an additional $310 million for the 
Indian Reservation Roads program. Much of the Indian 
Reservation Roads portion of the Recovery Act has been 
dedicated to improving roads that provide critical links 
between Tribal residences and vital community services, such as 
workplaces, schools and health care facilities.
    In July of this year, Secretary LaHood announced the 
availability of $527 million in funding for a third round of 
the Transportation Investment Generating Economic Recovery 
(TIGER) grant program. This discretionary funding will provide 
an additional opportunity for Tribes to compete for capital 
Improvement funds as direct recipients.
    In recognition of the importance of this program to the 
Tribes, DOT will hold a webinar tomorrow, actually, to provide 
outreach and education to the Tribes on the application 
process. Such outreach will continue through the application 
process over the next few weeks.
    We recognize that transportation is a critical tool for 
Tribes to improve the quality of life for Tribal residents by 
providing safe access to jobs, hospitals and schools. FHWA is 
committed to maintaining and improving the safety and 
conditions of transportation systems serving Indian lands and 
Alaska Native villages.
    Chairman Akaka, again, thank you for the opportunity to 
testify and I will be pleased to answer any questions that you 
or other members may have. Thank you.
    [The prepared statement of Mr. Baxter follows:]

 Prepared Statement of John R. Baxter, Associate Administrator, Office 
    of Federal Lands Highway, Federal Highway Administration, U.S. 
                      Department of Transportation
    Chairman Akaka, Vice Chairman Barrasso, and Members of the 
Committee, thank you for the opportunity to testify today regarding 
transportation issues facing Native American communities and the 
programs administered by the Federal Highway Administration (FHWA) that 
provide support to Tribes for addressing these issues.
    The Department of Transportation (DOT) recognizes that 
transportation needs for Tribes are often different than what we see 
needed elsewhere in the U.S. transportation network. In much of this 
country, we take for granted that roads and highways will be there for 
children to reach their schools, for emergency vehicles to reach those 
in need of medical care, and for members of the community to get to 
work. But, in Indian Country, we cannot always make that assumption. 
Moreover, Tribal communities need good roads to support economic 
development.
    Secretary LaHood shares President Obama's commitment to addressing 
Tribal issues and concerns. Last year, meeting with the National 
Congress of American Indians, the Secretary emphasized the DOT's 
commitment to improving existing Tribal transportation programs by 
seeking Tribal input on important regulations, providing timely 
technical assistance, and ensuring that Tribes are given ample 
opportunities to compete for grants. The Department also has 
implemented its Tribal Consultation Plan, a detailed plan of action the 
agency will take when developing, changing, or implementing policies, 
programs, or services with Tribal implications.
    FHWA has a long history of supporting Tribal governments' rights to 
self-determination and working directly with Tribes in a government-to-
government relationship. FHWA's top leadership continues to meet 
directly with Tribal government elected officials and transportation 
staff, and is committed to delivering a transportation program that 
works for all Tribes whether the Tribe has a large or small population.
    FHWA has sought to improve Tribal transportation by working 
directly with Tribal governments to improve Tribes' technical capacity, 
to improve safety on reservations and Native communities, and to foster 
partnerships between Tribal governments, local governments, Federal 
agencies, and State DOTs.
    The Indian Reservation Roads (IRR) program, administered by FHWA in 
partnership with the Bureau of Indian Affairs (BIA), is critical to 
supporting Tribal transportation needs. In many cases, it is the only 
source of revenue for transportation improvements. In working through 
FHWA's partnership with the Tribes and the BIA, the IRR program seeks 
to balance transportation mobility and safety goals with the 
environmental and cultural values of Tribal lands. FHWA also works with 
the Federal Transit Administration and the National Highway Traffic 
Safety Administration (NHTSA) in coordinating transportation programs 
that focus on planning, safety, and construction of roads and transit 
services within Indian country.
Overview
    The IRR system of roads provides access to and within Indian 
reservations, Indian trust land, restricted Indian land, eligible 
Indian communities, and Alaska Native villages. The IRR system consists 
of more than 140,000 miles of roads that link housing, schools, 
emergency services, and places of employment, and facilitate tourism 
and resource use. Almost 11 billion vehicle miles are traveled annually 
on the IRR system, even though it is among the most rudimentary of any 
transportation network in the United States. Just over 60 percent of 
the system is unpaved. If only BIA and Tribal roads of the IRR system 
are considered, this number increases to approximately 80 percent. 
Within the system, there are more than 8,000 bridges and approximately 
27 percent of these bridges are classified as deficient. These 
conditions make it very difficult for residents of Tribal communities 
to travel to employment centers, hospitals, schools, and stores--the 
most basic needs for a livable community.
    The poor road quality on Tribal lands also affects safety. For the 
past two years, traffic deaths on U.S. roads have reached record lows. 
However, despite the gains we have made on other systems, the annual 
fatality rate on Indian reservation roads continues to be more than 
twice the national average. Safety continues to be the Department's top 
priority, and FHWA is working closely with Tribes, the BIA, NHTSA, and 
others to address this disproportionate level of fatalities on Tribal 
roads.
    The IRR program is the largest Federal Lands Highway (FLH) program 
and is unique due to the relationship with Federally-recognized Indian 
Tribal Governments under the program. The IRR program serves 565 
Federally-recognized Indian Tribes and Alaska Native villages in 32 
States. FHWA co-administers the IRR program with the BIA under an 
agreement originating in 1948 and a Stewardship Plan from July 1996.
    IRR program funding has grown significantly under the Safe, 
Accountable, Flexible, Efficient Transportation Equity Act: A Legacy 
for Users (SAFETEA-LU), from a program size of $275 million annually 
under the Transportation Equity Act for the 21st Century (TEA-21) to 
$450 million annually today. This equates to a total of $2.76 billion 
over the life of SAFETEA-LU, including the extensions through the end 
of this fiscal year. These funds have been distributed according to a 
Tribal shares formula, which was developed through a negotiated 
rulemaking with Tribal governments. SAFETEA-LU also increased the 
eligible uses of IRR program funds by allowing a Tribe to use up to 25 
percent of its share of funds for road and bridge maintenance 
activities. This change allowed Tribes to supplement the funding they 
receive annually from the Department of the Interior (DOI) for 
maintenance activities. It also allowed the Tribes to address critical 
safety, snow removal, and pavement preservation issues. The increased 
funding and programmatic changes provided in SAFETEA-LU for the IRR 
program, along with an additional $310 million provided by the American 
Recovery and Reinvestment Act of 2009 (Recovery Act), discussed below, 
have provided tools and resources to substantially improve Tribal 
transportation.
Safety Programs
    Safety remains a significant transportation issue in Indian 
Country. Native Americans are overrepresented in several traffic 
fatality categories--including individuals under the age of 35, 
unbelted drivers, and individuals driving under the influence of 
alcohol. Eleven safety summits, including ten State-based and one 
national summit held in the past two years have focused on the subject, 
bringing the many safety partners together to discuss the safety issues 
affecting them. Two additional State-based summits, as well as an 
updated national Tribal safety summit are planned for the near future. 
FHWA and NHTSA will continue these summits to promote safety strategies 
across the four E's of safety--engineering, enforcement, education, and 
emergency medical services.
Highway Safety Improvement Program
    SAFETEA-LU established the Highway Safety Improvement Program 
(HSIP) with the purpose of achieving a significant reduction in traffic 
fatalities and serious injuries on all public roads through the 
implementation of infrastructure-related highway safety improvements. 
HSIP funding has been utilized for Tribal lands projects across the 
country.
    In Montana, for example, two HSIP construction projects totaling 
$1.88 million provided improvements such as the installation of 
Variable Message Signs on US-2 on the Blackfeet Reservation and the 
addition of a left-turn bay on US-93 on the Flathead Reservation.
    A $107,650 HSIP project in North Carolina along US-74 from the 
Haywood County line to NC-28 (North), in Eastern Band of Cherokee 
Nation, funded the installation of milled rumble strips on the median 
and outside shoulders.
    In North Dakota, two HSIP projects totaling $300,000 provided 
improvements along State highways within reservation boundaries of 
Standing Rock Reservation and Fort Berthold Reservation. Such 
improvements included the installation of shoulder and centerline 
rumble strips along State Highways 23 and 24.
    In Wisconsin, a $316,000 HSIP project was undertaken by the 
Wisconsin DOT along with the Forest County Potawatomi Tribe to improve 
a Tribal owned intersection at Everybody's Road and USH 8 in Forest 
County. The intersection project was combined with $900,000 BIA funds 
and $74,000 Tribal funds to construct a newly relocated intersection 
and frontage road (Everybody's Road) that leads to the Tribal 
headquarters offices and Tribal Community Center.
Safe Routes to School
    The Safe Routes to School (SRTS) program is a Federally-funded but 
State-managed and administered grant program established by section 
1404 of SAFETEA-LU. Under this program, each State has received at 
least $1 million each fiscal year to fund planning, design, and 
construction of infrastructure-related projects to improve the ability 
of students to walk and bicycle to school. A portion of each State's 
SRTS funding must also be used for non-infrastructure-related 
activities to encourage walking and bicycling to school. Federally-
recognized Tribes are eligible sub-recipients of this State-
administered program.
    Several States are working closely with Tribes to promote the SRTS 
program. For example, in Washington State, DOT provided SRTS funds to 
the Suquamish Tribe to install sidewalks, bike lanes and signs and to 
conduct education and enforcement activities to teach children 
pedestrian safety skills. Similarly, in Arizona, the Yavapai-Apache 
Nation utilized SRTS funds to add signs and roadway striping throughout 
the community surrounding a Montessori Children's House school. In 
Montana, SRTS funds were utilized in the City of Arlee for an 
elementary school traffic education program and construction of a 
pathway. The Santee Sioux Nation Indian Reservation used SRTS funds in 
Nebraska to build a path for children that connected a local school 
with a residential community and increased pedestrian visibility. In 
Oregon, Warm Springs Elementary School on the Warm Springs Reservation, 
received a $1000 mini-grant in Safe Routes to School Clearinghouse 
Funds to reduce speeding and improve yielding to pedestrians in 
crosswalks. These funds will be used for a media campaign and to hire a 
crossing guard trainer for crossing guard volunteers.
Section 402 State and Community Highway Safety Grant Funds
    NHTSA provides safety grant funds to the Secretary of the Interior 
to save lives, prevent injuries, and reduce economic loss due to motor 
vehicle related crashes on Tribal land. The BIA administers the funds, 
known as the Section 402 State and Community Highway Safety Grant 
Funds. NHTSA provides technical assistance to Tribes through 
partnership with the BIA.
SAFETEA-LU Funding for Tribal Transportation
    Although the IRR program is the principal funding source for Tribal 
roads, these roads are eligible to receive funding under other SAFETEA-
LU programs as well.
Indian Reservation Roads Bridge Program (IRRBP)
    The Indian Reservation Roads Bridge Program (IRRBP) was established 
under TEA-21 and funded using $13 million of the primary IRR Program. 
The program's purpose was to provide funding for reconstruction or 
rehabilitation of structurally deficient or functionally obsolete IRR 
bridges. SAFETEA-LU amended the IRRBP by establishing it as an 
independently funded program, authorized at $14 million per year, and 
allowing design activities to be funded. FHWA worked with the Indian 
Reservation Roads Program Coordinating Committee to implement these 
legislative changes. Since its inception in TEA-21, the IRRBP has 
provided more than $175 million in funding to over 300 bridge projects 
in Indian Country.
National Scenic Byways Program
    Indian Tribes have participated in the National Scenic Byways 
Program since its inception under the Intermodal Surface Transportation 
Efficiency Act of 1991 (ISTEA). SAFETEA-LU authorized the Secretary of 
Transportation to make grants from this program directly to Indian 
Tribes and to allow Tribes to nominate Indian roads directly to FHWA 
(without going through a State department of transportation) for 
possible designation as a National Scenic Byway or an All-American 
Road.
    FHWA has participated in Tribal transportation conferences to 
inform Tribes of these changes to the National Scenic Byways Program. 
FHWA also worked with the America's Byways Resource Center in Duluth, 
Minnesota to establish a Tribal liaison position within the Resource 
Center to provide technical assistance to Indian Tribes for 
establishing Tribal scenic byways programs and designating roads as 
Indian Tribe scenic byways.
    In addition, FHWA has modified its grant application procedures so 
that Indian Tribes may submit grant applications directly to FHWA. In 
fiscal year 2011, Tribes submitted nine applications directly to FHWA 
and two applications through the State departments of transportation, 
requesting a total of $3.13 million. FHWA selected five of the 
projects, providing a total of $2,104,796 in funding.
Public Lands Discretionary Program
    The Public Lands Highway Discretionary program is another source of 
funding available to Tribes for transportation needs. The program 
provides funding to any project eligible under title 23, United States 
Code, that is within, adjacent to, or provides access to Tribal or 
Federal public lands. Over the life of SAFETEA-LU, including the 
extensions through the end of this fiscal year, nearly $570 million was 
made available through this program. Of the $570 million, $72 million 
was provided for 78 Tribal related transportation projects. This year 
alone, 16 Tribal projects totaling more than $20 million will receive 
funding through this program.
FHWA Implementation of SAFETEA-LU Requirements for Tribal 
        Transportation
    In addition to increased funding, SAFETEA-LU brought about many 
changes in how the IRR program is administered and to the roles and 
responsibilities of all parties involved in transportation delivery to 
Tribal communities. Prior to SAFETEA-LU, FHWA provided stewardship and 
oversight to the IRR program from a national perspective, and the BIA 
worked with the Tribes by delivering the funds and providing technical 
assistance. With the passage of SAFETEA-LU, Tribes now have the option 
to enter into IRR Program Funding Agreements and work directly with 
FHWA for their IRR Program share as long as the Tribes meet financial 
audit and management capacity requirements. The number of Tribes 
electing this option has grown from three the first year to more than 
92 Tribes today.
    In response to this increase in the number of Tribes, and increased 
stewardship and oversight responsibilities, FHWA's FLH Office, which 
has direct responsibility for administering the IRR program, has 
increased staffing and worked closely with the Tribes and the BIA to 
develop uniform program guidance. In addition to carrying out numerous 
face-to-face meetings with each Tribe and conducting outreach and 
training through webinars, regional conferences, and organized classes, 
FLH developed a new program manual for all Tribes, States, counties, 
and Federal agencies that communicates program expectations, roles and 
responsibilities, and best practices.
National Indian Reservation Road Inventory
    SAFETEA-LU directed FHWA to complete a comprehensive national 
inventory of IRR eligible transportation facilities and submit a Report 
to Congress. The purpose of the inventory study was to ensure that the 
data in the existing inventory is accurate, and to help streamline the 
procedures that Tribes utilize for updating their inventory. The 
inventory is the most significant factor used to calculate the Tribal 
shares of IRR program funding; thus, it is critical that data in the 
inventory be accurate.
    FHWA completed and delivered the required Report to Congress in 
2008. The Report outlined the Agency's assessment of the inventory 
process, including its accuracy and consistency of application. The 
Report included the identification of more than 100,000 miles of road 
as well as recommendations for improvement and additional study areas. 
Since issuance of the Report, the inventory has grown to more than 
140,000 miles of road. As a result of the Report and issues that have 
arisen from the Question 10 series of consultations, FHWA plans to work 
with a consultant to review more than 75 percent of the inventory data. 
This work will clarify programmatic definitions of the inventory 
entries and correct critical data errors and omissions that exist 
within the current inventory in order to ensure an accurate data 
system. Ultimately, the inventory will reflect the needs of Tribal road 
transportation and serve as an important tool to help make the program 
fair and equitable for all Tribes.
Outreach and Capacity Building
Road Safety Audits and Safety Trainings
    Strategies such as Road Safety Audits (RSAs) and community-based 
enforcement are proving to be effective tools for reducing fatalities 
on Tribal lands. The FHWA Office of Safety sponsors training on Road 
Safety Fundamentals and RSAs, and works with State and local 
jurisdictions and Tribal governments to integrate RSAs into the project 
development process for new and existing roads and intersections.
    RSAs examine the safety performance of an existing or future road 
or intersection by an independent, multidisciplinary team. They 
estimate and report on potential road safety issues and identify 
opportunities for improvements in safety for all road users. RSAs 
enable localities and Indian Tribes with little or no safety data to 
get an expert assessment on how to improve the safety of their roads.
    RSAs were conducted for the following Tribal entities--Santa Clara 
Pueblo and Jemez Springs Pueblo, New Mexico; Standing Rock Sioux, North 
Dakota; the Eastern Band of Cherokee Indians, North Carolina; the 
Navajo Nation, Utah; Red Cliff Band of Lake Superior Wisconsin; Smith 
River Rancheria, California; Native Villages of Minto and Manley Hot 
Springs Village, and on Prince of Wales Island in Alaska; and six 
additional Tribes in Arizona. These RSAs were carried out in 
cooperation with State DOTs.
Tribal Technical Assistance Program
    Tribes report that education and training remain significant 
challenges. Many Tribes do not have a sustainable level of 
transportation expertise, given their size and resources. The FHWA 
supports a Tribal transportation assistance program with seven centers 
serving Indian Country. These Tribal Technical Assistance Program 
(TTAP) centers provide a variety of training and professional 
development programs as well as technical publications and training 
materials related to transportation planning, safety, the environment, 
infrastructure design, construction and management, and other issues. 
The centers are a key resource for basic services and to help many 
Tribes become self-sufficient as sovereign nations in transportation 
delivery. The purpose of our seven TTAP centers is to foster a safe, 
efficient, and environmentally sound surface transportation system by 
improving the skills and increasing the knowledge of local 
transportation professionals.
    The TTAP centers provide access to information, training, and 
program management enhancements that may not have otherwise been 
accessible to Tribes. In 2010, the TTAP Centers provided 299 training 
courses to over 7,000 participants.
    Through the TTAPs, FHWA also continues to provide technical 
assistance and training to Tribes on conducting their own RSAs. For 
example, FHWA has provided funding and support to the Northern Plains 
TTAP to sponsor a Road Safety Audit Outreach Coordinator, who has 
provided training and RSAs for the Spirit Lake Nation, the Winnebago 
Tribe of Nebraska, and others.
    While FHWA has remained focused on implementing SAFETEA-LU 
programs, the Agency has also been recently hard at work ensuring that 
Tribes use the much needed supplemental resources provided by the 
Recovery Act.
American Recovery and Reinvestment Act of 2009
    In addition to SAFETEA-LU funding, the Recovery Act has 
supplemented funding for Tribal communities by providing an additional 
$310 million for the IRR program. Since the Recovery Act was signed 
into law, FHWA and BIA have worked diligently to ensure that the funds 
for these projects are distributed quickly, wisely, and with 
unprecedented transparency and accountability. The Federally-recognized 
Tribes were eligible to receive Recovery Act funding based on the IRR 
formula, which takes into account the highway projects' estimated 
construction cost, volume of traffic along the route, and the Tribe's 
current population. Much of the IRR portion of the Recovery Act has 
been dedicated to improving roads that provide critical links between 
Tribal residences and vital community services such as schools and 
health care facilities.
    FHWA, along with BIA and with input from Tribes, developed a 
process that described the requirements for Tribes to receive and 
obligate their share of Recovery Act funding by focusing on obligating 
the majority of the $310 million before the end of fiscal year 2010. 
FHWA and BIA also developed guidance to ensure a fair and transparent 
process to redistribute funds in cases where funds would not otherwise 
be obligated. The redistribution of more than $22.5 million to 
approximately 25 Tribes nationwide helped ensure the efficient and 
effective use of Recovery Act funds. To date, the more than 518 ARRA 
funded projects are on average 80 percent complete, and according to 
documentation provided by the Tribes, these projects have generated 
more than 8,500 jobs.
    An example includes the Blackfeet Indian Tribe in Montana that 
awarded a project for $916,068 to improve a 14-mile segment of road 
known as the Starr School Road. This completed project is now providing 
a safer facility for school buses and other school traffic through sign 
replacement, new right of way fences, and new roadway striping. The 
drainage and pavement improvements made will extend the life of the 
facility.
    Another example is the Ramah Navajo Chapter in New Mexico that used 
its Recovery Act funding along with its allocated IRR funding to 
construct a $2.2 million project to provide an all weather surfaced 
road to a new housing development. These residents had previously been 
required to access their homes via a two-track mud road which became 
impassible in inclement weather.
    In the Native Village of Tuntutuliak in Alaska, the Tribe combined 
Recovery Act funding with IRR Program funds and funding from the Denali 
Commission to reconstruct a 30-year-old board road. This $846,000 
project now allows villagers to move within the village without having 
to trudge through the tundra. The BIA reports that this project was 
completed using all Tribal employment.
    For the Transportation Investment Generating Economic Recovery 
(TIGER) grant award program, Congress dedicated $1.5 billion under 
TIGER I and $600 million under TIGER II for DOT to provide direct 
grants to State, local, and Tribal governments, to fund surface 
transportation projects that have a significant impact on the Nation, a 
region or a metropolitan area. DOT was able to fund 51 innovative 
capital projects under TIGER I, and an additional 42 capital projects 
under TIGER II. TIGER II also featured a planning grant category, and 
DOT was able to fund 33 planning grant projects. Both TIGER programs 
involved a highly competitive process and received tremendous applicant 
interest. Tribal projects were selected under both TIGER I and TIGER 
II.
    The Navajo Nation received a $31 million TIGER I grant to improve 
US-491, the primary north-south highway that connects the Tribe to 
other parts of New Mexico, Colorado, and the Four Corners area, by 
constructing two new lanes and making safety improvements. The project 
is being administered by the New Mexico DOT and will improve safety and 
transportation efficiency. It will also create potential economic 
development opportunities for the Navajo Nation.
    TIGER I funds were also used to reconstruct a portion of US-18 
between Oglala and Pine Ridge on the Pine Ridge Reservation in South 
Dakota. This $10 million project upgraded 15.6 miles of a two lane 
highway that had no shoulders and deteriorating pavement. These 
improvements will significantly improve the overall safety of this 
section of road which has experienced an accident rate more than 2.5 
times the South Dakota average.
    The Pueblo of Laguna received a $1,470,000 TIGER II planning grant 
to plan and design approximately 40 miles of trails on the reservation 
to connect six distinct communities with a focus on their traditional 
village cores. Creating links between five villages supports the 
collaborative efforts of the communities on the reservation and 
provides inexpensive transportation choices in this rural region of 
need.
    On July 6, 2011, Secretary LaHood announced the availability of 
$527 million in funding for a third round of the TIGER grant program. 
This discretionary funding will provide an additional opportunity for 
Tribes to compete for capital improvement funds as direct recipients. 
In recognition of the importance of this program to the Tribes, DOT 
will hold a webinar tomorrow to provide outreach and education to the 
Tribes on the application process. Such outreach will continue through 
the application process in order to ensure quality applications are 
received for consideration.
Conclusion
    Transportation infrastructure is a critical tool for Tribes to 
improve the quality of life in their communities by providing safe 
access to jobs, hospitals, and schools. The challenges are to maintain 
and improve transportation systems serving Indian lands and Alaska 
Native villages in order to provide safe and efficient transportation, 
while at the same time protecting environmentally sensitive lands and 
cultural resources. The Department is committed to improving 
transportation access to and through Tribal lands through stewardship 
of the Federal Lands and Federal-aid programs. Thank you again for this 
opportunity to testify. I will be pleased to answer any questions you 
may have.

    The Chairman. Thank you very much, Mr. Baxter.
    I would like to ask Mr. Tsosie to please proceed with your 
testimony.

    STATEMENT OF PAUL TSOSIE, CHIEF OF STAFF, OFFICE OF THE 
            ASSISTANT SECRETARY FOR INDIAN AFFAIRS, 
DEPARTMENT OF THE INTERIOR; ACCOMPANIED BY LEROY GISHI, CHIEF, 
  DIVISION OF TRANSPORTATION, BUREAU OF INDIAN AFFAIRS, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Tsosie. Thank you. Good afternoon, Mr. Chairman and 
other members of the Committee. Aloha.
    The Chairman. Aloha.
    Mr. Tsosie. My name is Paul Tsosie. I am the Chief of Staff 
for the Assistant Secretary for Indian Affairs. And as is 
customary with Navajos, I am going to introduce myself in 
Navajo.
    [Greeting in Native tongue.]
    Mr. Tsosie. In preparation for this testimony, I want to 
thank certain individuals, Mr. Darren Pete and Chastity Bodoni, 
who both work in the Office of Congressional Affairs for the 
Department of Interior. I also want to give a special thanks to 
Leroy Gishi, who is here to my right, the Division Chief for 
the BIA's Division of Transportation. He will be here with me 
to answer any technical questions after I testify.
    Last week, the President of the United States gave an 
urgent message about the lagging economy, the need to create 
jogs, to put people to work, to rebuild decaying roads and 
bridges. On behalf of the Department of Interior, we have a 
duty to carry this out for Indian communities.
    Now, as a piece of background, I want to give the baseline. 
We have around 145,000 roads in Indian communities; 31,000 of 
those are BIA, Bureau of Indian Affairs, roads. That is about 
22 percent. And 20,000 of those are unpaved, which means that 
two-thirds of the BIA roads are automatically considered 
inadequate for BIA standards. We need investment in our road 
system. If we invest in our road system, we can create jobs and 
safer communities.
    Since 1982, under the IRR program, the Department of 
Interior, along with the Department of Transportation, we have 
invested over $6 billion into infrastructure within Indian 
communities. Another good example of our investment into Indian 
communities is ARRA. Under ARRA, about 6,500 jobs were created 
in Indian communities. That was over 800 projects estimated to 
be around $440 million into these projects. And we had an 
obligation on behalf of the Department of Interior of 99.9 
percent. And 90 percent of these funds made it directly into 
Tribal communities and local economies.
    This was investment into local economies where unemployment 
is high, the average income is low, and people are hungry for 
the work. As far as safety goes, our roads are being used every 
day by police officers, ambulance drivers, school buses, 
everyday traffic. And to add on top of this, these past few 
years in Indian Country have been some of the worst, with 
floods, rain, snow, natural disasters in Indian Country. These 
natural disasters emphasize the need for safe roads within 
Indian communities.
    Mr. Baxter just testified that the annual fatality rate on 
Indian reservation roads is more than twice the national 
average. So what all these facts add up to is that we have a 
big job to do. We have a big job to invest in infrastructure 
which will lead to jobs and safety.
    Now, this is not just a responsibility of the Department of 
Interior. It is not just the responsibility of the Department 
of Transportation. This is a responsibility of the Federal 
Government and Indian Tribes. We look forward to working 
together with Mr. Jefferson Keel from NCAI, Chairman Murphy 
from Standing Rock. We look forward to working together with 
them and we also look forward to working together with State, 
county and local entities.
    And especially, we look forward to working together with 
this Committee on any SAFETEA-LU reauthorizations where we can 
offer specific recommendations to this Committee to make sure 
this happens. Because in Indian Country right now, Tribal 
individuals need employment. Tribal companies need to be put to 
work. Tribal communities are waiting for infrastructure 
development. Roads and bridges are there that need to be 
repaired. There are projects in the Southwest, Great Plains, 
the Rocky Mountains and Alaska that need to be completed. We 
need to provide job opportunities and safe roads for our Indian 
people.
    Thank you, mahalo. I will be here for any questions.
    [The prepared statement of Mr. Tsosie follows:]

   Prepared Statement of Paul Tsosie, Chief of Staff, Office of the 
   Assistant Secretary for Indian Affairs, Department of the Interior
Introduction
    Good afternoon Mr. Chairman and members of the Committee. My name 
is Paul Tsosie and I am the Chief of Staff for the office of the 
Assistant Secretary for Indian Affairs at the Department of the 
Interior (Department). With me today is Mr. LeRoy Gishi, the Division 
Chief for the Bureau of Indian Affairs' (BIA) Division of 
Transportation.
    Last week President Obama reminded us of the urgency of addressing 
our country's lagging economy, the need to create jobs, the need to put 
people to work rebuilding America, and to address our badly decaying 
roads and bridges all over our country. This includes the roads and 
bridges that are constructed, maintained and traversed in Indian 
Country. This Administration has been focusing on improving the lives 
of people living in Indian Country through the BIA Indian Reservation 
Roads and the Roads Maintenance Programs. This focus has also been 
supplemented with the federal government's investment through the 
American Recovery and Reinvestment Act (ARRA) and the Safe, 
Accountable, Flexible, Efficient Transportation Equity Act: A Legacy 
for Users (SAFETEA-LU) funding authorizations.
    Improving and adequately maintaining transportation systems 
provides increased public safety and economic development opportunities 
in Indian communities. Safe roads are important when transporting 
people in rural areas to and from schools, to local hospitals, and for 
delivering emergency services. In addition, transportation networks in 
American Indian and Alaska Native communities are critical for economic 
development in such communities because these transportation networks 
provide access to other economic markets. Thus, we are pleased to 
testify before this Committee on Tribal Transportation: Paving the Way 
for Jobs, Infrastructure, and Safety in Native Communities, and to 
provide an overview of the BIA's Road Maintenance Program and the 
Indian Reservation Roads (IRR) Program.
Overview
    The BIA has been involved in the repair, construction and 
reconstruction of roads on Indian Reservations since the 1920s. From 
1950 until 1983, Congress appropriated annual construction and 
maintenance funds to the BIA to maintain, repair and construct roads on 
Indian Reservations. During this time, approximately $1.2 billion was 
provided for both construction and maintenance of reservation roads. 
The Surface Transportation Assistance Act of 1982 (Public Law 97-424) 
created the Federal Lands Highway Program (Title 23 U.S. Code, Chapter 
2) and established the IRR Program as a category of public roads 
providing access to or within Indian reservations, lands, communities 
and Alaska Native villages. The IRR Program is now jointly administered 
by the BIA in the Department, and the Federal Highway Administration 
(FHWA), which is within the Department of Transportation.
BIA Indian Reservation Roads (IRR) Program
    The change in the Surface Transportation Assistance Act of 1982 
meant that the IRR Program would be funded by the Department of 
Transportation's Highway Trust Fund. Since the establishment of the IRR 
Program, the Federal construction investment in the IRR system that is 
now comprised of BIA, Tribal, state, county and local roads and bridges 
has exceeded $6 billion. These investments have contributed greatly to 
the improvement of roads and the replacement or rehabilitation of 
deficient bridges on or near reservations throughout Indian Country.
    Today, the IRR Program supports over 145,000 miles of public roads 
with multiple owners, including Indian Tribes, the BIA, states and 
counties. There remains a great and continuing need to improve the 
transportation system throughout Indian Country. The BIA views this as 
a joint responsibility including not only Federal agencies, but state 
and local governments with transportation investments on or near 
American Indian and Alaska Native communities, as well. Coordination 
among all of these owners is required in order to maximize available 
resources to address transportation needs.
Question 10 of 25 CFR Part 170
    Specific to the IRR Program, in 2004, the Department of the 
Interior published the Final Rule establishing the policies and 
procedures governing the IRR Program. See 69 Fed. Reg. 43090 (July 19, 
2004), codified at 25 C.F.R. Part 170. Question 10, in Appendix C to 
Subpart C of the Final Rule, addressed a question regarding the IRR 
Program's funding formula. Since 2004, the IRR Program and Tribes have 
been struggling with ``Question 10'' and the BIA and FHWA have worked 
to clarify the interpretation.
    Question 10 (Q10) addresses whether a road's Cost to Construct 
(CTC) and Vehicle Miles Traveled (VMT) is to count at 100 percent in 
the formula calculation, or at the non-Federal share if the road is 
otherwise eligible for Federal-aid funds. See 69 Fed. Reg. at 43121. 
The non-Federal share is the local match percentage as established by 
the FHWA for federal aid highways, which varies from 5 percent to 20 
percent. The Federal share is the percentage of cost of Federal aid 
projects payable by the Federal Government.
    While the answer specified in the Final Rule was that a non-Federal 
share percentage should be applied, the BIA has administered the 
program with all costs counting 100 percent (except for State-owned 
roads), since there was no data in the inventory to clearly distinguish 
roads that were only eligible for certain types of Federal funds. The 
Final Rule on IRR also established an IRR Program Coordinating 
Committee (IRRPCC), to provide input and recommendations to both the 
BIA and the FHWA in the development or revision of the IRR Program's 
policies and procedures. The IRRPCC took up the Q10 issue beginning in 
August of 2006 but was unable to agree upon a recommendation. As a 
result, representatives from the IRRPCC requested that BIA and FHWA 
develop a proposed clarification for Q10.
    The BIA and FHWA proposal eliminates road ownership from 
consideration in the IRR formula calculation and places the 
determination strictly on roadway classification. This clarification 
calls for the non-Federal share percentages to be applied to roads that 
are determined to be otherwise eligible for Federal funds, resulting in 
a consistent application of the non-Federal share across all roads in 
the IRR Program inventory.
    This proposed clarification recognizes that any road with a 
functional classification above local road or rural minor collector 
will contribute its CTC and VMT at the non-Federal share rate, except 
for BIA and Tribally owned roads which contribute 100 percent to the 
CTC and VMT regardless of functional classification. This 
interpretation is aligned with the original language of Q10.
    It is anticipated that the proposed clarification of Q10 will 
appropriately move the focus of discussions surrounding the IRR Program 
roads inventory and funding process from Q10 to the broader issues of 
the quality, physical size and composition of the IRR Program roads 
inventory. Over the past 6 years the inventory has increased from 
approximately 65,000 miles in 2005 to approximately 145,000 in 2010. 
Achieving consistency in the IRR Program roads inventory is an on-going 
effort involving training, process improvements, and implementing 
consistent parameters that will require a dedicated effort from all 
parties.
    More recently, the FHWA, working with BIA, has entered into a 
contract with an independent engineering firm to review more than 75 
percent of the inventory data. This work will clarify programmatic 
definitions of the inventory entries and correct critical data errors 
and omissions that exist within the current IRR inventory in order to 
ensure an accurate data system. This data review and clarification of 
the inventory will reflect the needs of Tribal road transportation and 
serve as an important tool to help make the program fair and equitable 
for all Tribes.
BIA Road Maintenance
    The BIA currently implements both the Department of 
Transportation's Highway Trust Funded IRR program and the Department of 
the Interior-funded BIA Road Maintenance Program. The BIA Road 
Maintenance Program has traditionally been responsible for maintaining 
only roads owned by the BIA. Today, of the 145,000 miles of roads in 
the IRR Program, the BIA has responsibility for 31,000 miles of roads 
designated as BIA system roads. The BIA receives Tribal Priority 
Allocation (TPA) funding annually for the administration of the road 
maintenance program for those roads.
    Further, approximately 30 percent of Tribes with BIA system roads 
within their reservation boundaries currently carry out the BIA Road 
Maintenance Program through P.L. 93-638 self-determination contracts or 
agreements in lieu of federal employees. Approximately 20,500 miles (66 
percent) of the BIA system roads are not paved and are, thus, 
considered ``inadequate'' from the perspective of the Level of Service 
index used to assess roads and bridges in the BIA road system.
    There are numerous different vehicles utilizing the road systems, 
paved and unpaved, in Indian Country. Passenger vehicles, commercial 
vehicles and public safety and emergency medical vehicles use these 
roads. The IRR Program does not track the specific type of vehicle 
using the road systems in Indian Country. Building, repairing and 
maintaining the roads system in Indian Country is crucial for providing 
safe and adequate roads for individuals and commercial businesses and 
for public safety in Indian Country.
American Recovery and Reinvestment Act (ARRA)
    On February 17, 2009, President Obama signed into law the American 
Recovery and Reinvestment Act of 2009 (Public Law 111-5) (ARRA). ARRA 
provided supplemental funding for infrastructure investment in Indian 
Country. A portion of ARRA funding was provided to the IRR Program 
within Indian Affairs, subject to certain restrictions and 
requirements. ARRA offered a unique opportunity to make tangible 
improvements to Indian communities while promoting economic recovery 
through the preservation and creation of jobs. A few of the 
requirements, such as, obligating and expending the ARRA funds within 
two years, resulted in an increase in employment for road construction 
in Indian Country in order to meet these requirements. Based on reports 
by Tribes that participate in the IRR Program, we estimate that over 
6,500 jobs were created under the ARRA funding that flowed into Indian 
Country. This figure may be higher if the Tribes who did not report job 
increases did in fact have increased employment numbers as it related 
to ARRA funding they received for road construction.
    As of September 30, 2010, 99.9 percent of the funding provided by 
ARRA for both Repair and Restoration of BIA roads and bridges and the 
construction and reconstruction of IRR Program facilities had been 
obligated to projects approved by the Secretaries of the Department of 
the Interior and the Department of Transportation. Within the Repair 
and Restoration of BIA roads program, over 400 projects were awarded 
totaling over $141 million. Within the IRR Program, approximately 420 
projects were awarded totaling over $225 million. In addition, over $50 
million was awarded to Tribes contracting directly with the FHWA.
    ARRA funds made a significant contribution to improving 
transportation facilities in Indian Country. Each eligible Tribe was 
given the opportunity to receive maintenance and construction 
improvements on their BIA and IRR Program facilities, including roads, 
bridges, transit structures, docks, and boardwalks. In addition, the 
provisions of ARRA authorized the Secretary of Transportation to 
redistribute unobligated funds to projects submitted by Tribes based on 
a call for projects in February 2010. The total ARRA funding 
redistributed by both agencies was approximately $22.5 million.
Reauthorization of SAFETEA-LU
    As we discuss the need for jobs, infrastructure and safety of roads 
in Indian communities, it is important to note that there is the need 
for prompt and immediate reauthorization of the SAFETEA-LU Act. This 
reauthorization is crucial to Tribal governments that rely on early 
notification of their Tribal shares from the funding formula to plan 
their priority projects. The numerous short term extensions of SAFETEA-
LU result in infrequent and delayed allocations to the Tribes and have 
also resulted in late planning and obligations to Tribal contracts. 
These delays force projects to be delayed as much as one year.
    Indian Affairs established its priorities for the reauthorization 
of the surface transportation programs. These priorities include, but 
are not limited to, additional resources to meet the need of a 
deteriorating roads system, establish an IRR Safety Program, additional 
resources for the IRR Bridge Program, and increase the planning set-
aside from the IRR Programs from two percent to four percent.
Conclusion
    Indian Affairs is committed to addressing the transportation needs 
in Indian Country through our support for the IRR Program, the Road 
Maintenance Program, and applaud the infusion of ARRA funding for 
transportation in Indian Country. As the President stated last 
Thursday, ``[t]here are private construction companies all across 
America just waiting to get to work. There's a bridge that needs repair 
between Ohio and Kentucky that's on one of the busiest trucking routes 
in North America. A public transit project in Houston that will help 
clear up one of the worst areas of traffic in the country.'' A similar 
statement can be made for Indian Country. We know there are American 
Indian owned and Tribally owned construction companies all across 
Indian Country just waiting to get to work. There are bridges that need 
repair on Tribal lands in New Mexico, North Dakota, South Dakota, and 
on Tribal lands in Wyoming. And there are transit projects on Tribal 
lands that provide rural transportation on those Tribal lands. And as 
part of the immediate infrastructure investments that the President 
sent to Congress in the American Jobs Act, $310 million would be 
directed towards the Indian Reservation Roads program.
    Thank you for the opportunity to present testimony on an issue that 
is an important part of the employment, economic infrastructure and 
roads safety for Tribes. We will be happy to answer any questions you 
may have.

    The Chairman. Thank you very much, Mr. Tsosie, for your 
testimony.
    I know that some of my colleagues are limited in how long 
they will be able to stay for today's hearing, so I am going to 
ask the first panel one question, and then I will defer to my 
colleagues to make an opening statement and to ask their 
questions.
    My question to both witnesses is, whether you think that 
the Administration's recommendations to deal with the IRR 
funding formula issue, or what we call Question 10, will 
resolve that issue? Or is legislative action necessary? Mr. 
Baxter?
    Mr. Baxter. Mr. Chairman, my sense is that we have done 
quite a bit of work to remedy the issue of Question 10. Of 
course, the issue gets to whether the non-Federal share is 
applied toward the inventory process or not. There have been a 
number of discussions related to the issue. And recently, the 
Department has been working with Tribes and the coordinating 
committee to make sure that we address the issue and are moving 
forward with the intent of the original rulemaking process.
    We have undergone efforts to make the guidance more clear. 
We are working on the coding guides to eliminate any 
subjectivity that might be part of that. And we are developing 
teams that will look at the quality of the data that is in the 
inventory.
    We actually have a consultant on board to review about 75 
percent of the inventory that is in question, and whether or 
not those roads are otherwise eligible for Federal aid. And 
that determines the percentage of the funds that are counted 
toward the inventory process.
    So we have been working directly with the Tribes. We think 
we have an appropriate solution that honors the original intent 
of the rulemaking process. And therefore, we don't believe that 
there is a legislative fix necessary. We believe that what we 
are doing, in partnership with the Tribal leadership, is moving 
the issue forward, and we will resolve it.
    The Chairman. Thank you very much, Mr. Baxter.
    Mr. Tsosie?
    Mr. Tsosie. Mr. Baxter exactly, he stole my answer. But I 
just wanted to address the Committee and indicate that it is 
premature at this time for any legislative action because this 
rule was developed with consultation with Indian Tribes, the 
rulemaking process, and now we are implementing it in a fair 
manner that is consistent with the law.
    Thank you.
    The Chairman. Thank you very much.
    Now I would like to call on our Vice Chairman, Senator 
Barrasso, for any opening statement he may have and questions.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman, and 
thank you for holding this hearing today.
    Before I begin with the questions, I do want to welcome Wes 
Martel, who is Co-Chair of the Eastern Shoshone Tribe in 
Wyoming, as well as Jim Shakespeare, who is Chair of the 
Northern Arapaho Tribe in Wyoming.
    Mr. Chairman, I have a brief opening statement, because 
transportation facilities are key to improving the quality of 
life in Indian Country. Tribes and their members need safe, 
accessible and well-maintained roads. They need them to get to 
work, to get their children to and from school and to allow 
police and firefighters and other emergency responders to do 
their jobs as well.
    They need these roads also to make economic development 
possible. The Indian Reservation Roads program has over the 
years greatly improved transportation infrastructure in Indian 
Country. As we have heard, though, still much work needs to be 
done. So hopefully we are hearing today how we can continue 
working toward safe and reliable infrastructure in Native 
communities.
    My first question for both witnesses is this: in the second 
panel we are going to hear John Healy testifying about 
inconsistent interpretations of the definition of ``Indian 
reservation roads,'' and that inconsistent interpretation has 
resulted in some misrepresentation of the needs in Indian 
Country.
    Do you think that maybe your agencies should adopt a 
uniform guideline for determining what roads qualify as Indian 
Reservation Roads? Mr. Baxter, we can start with you, and then 
Mr. Tsosie.
    Mr. Baxter. Thank you.
    I do believe that discussions we have had on the Q10 issue 
are addressed in that issue. As we know, the Indian Reservation 
Roads program consists of roads that are owned and operated by 
the Bureau of Indian Affairs, those that are Tribally owned, as 
well as those that are owned by State and county governments. 
When we look at those roads, we look at the classifications of 
them, the types of facilities, how much it costs to reconstruct 
those facilities, the volumes, the population base that they 
support, all those things are part of the formula, part of the 
necessary analysis of determining what is a fair and equitable 
distribution of funds through that inventory process.
    So we apply those definitions of the different types of 
roadways and whether it is on a reservation or not. A lot of 
roads are not within a reservation boundary, but they certainly 
serve and provide access to Tribal lands and access to Tribal 
communities.
    So I think we are addressing those definitions through the 
process of the Q10 issue as well as the inventory items that we 
addressed.
    Senator Barrasso. Mr. Tsosie?
    Mr. Tsosie. Thank you.
    On this question, I am going to defer to Mr. Leroy Gishi.
    Mr. Gishi. Thank you.
    Senator Barrasso, what Mr. Baxter said is exactly correct. 
In fact, one of the significant changes in the regulations as a 
result of the negotiated rulemaking was to develop a committee 
of Tribal representatives, one of the few, in fact, that we 
have at the Department of Interior that are in regulation. This 
Committee, the Indian Reservation Roads program coordinating 
committee, we have been working with them since they were 
developed as part of the regulation. And part of that process 
is to work through a lot of these issues.
    We are currently working on three major issues, one of them 
was Question 10, and working with that same committee, as well 
as, as Mr. Baxter indicated, those roads which are identified 
as access roads, proposed roads. We continue to work with them 
and coordinate. The committee, 24 members from Indian Country 
throughout the Nation, are very dedicated in helping us to 
resolve those very issues that are out there. And we do 
recognize that and they do also.
    Thank you.
    Senator Barrasso. Thank you.
    Mr. Baxter, last October I think you testified that the 
number of traffic deaths on U.S. roads reached a record low. 
Meanwhile, the annual fatality rate on Indian reservation roads 
continued to be more than three times the national average. You 
also testified that safety summits were held to address these 
high fatality rates. Today you have testified regarding 
additional highway safety efforts.
    Can you tell us a little bit about the effects of these 
efforts, what they have had on the fatality rates in Indian 
communities?
    Mr. Baxter. Thank you. We have been very aggressive in the 
safety area in Indian Country. We applied a comprehensive 
approach, we call it the 4E approach of safety, we looked at 
engineering countermeasures, we looked at enforcement, we 
looked at education and we looked at emergency services. We 
need to make progress in all four of those areas.
    We are working very closely with the National Highway 
Traffic Safety Administration on behavioral programs such as 
belt usage and DUI enforcement. In Indian Country, alcohol 
usage is above the national average, 48 percent versus 32 
percent. And percentage of unrestrained occupants is 75 percent 
versus 55 percent. So we have some areas that we really need to 
make some improvements and focus our resources.
    On the infrastructure side, there are a number of proven 
technologies and proven strategies that we use on all of our 
roads across the Country. Certainly the use of rumble strips 
and guardrails and roundabouts, the way we approach and design 
intersections, adequate shoulders, all these things are basic 
safety measures that we can take. So we have been very 
aggressive in that area.
    We also have a Tribal safety planning steering committee 
which is represented by a number of Federal agencies as well as 
a number of Tribal leaders around the Country. This past 
summer, they developed a Tribal safety plan which identifies a 
number of these strategies, such as the summits and plans. Road 
safety audits are a very important tool, because oftentimes in 
Indian Country we don't have adequate data to support the 
analysis of highway crashes. So we use multidisciplinary teams 
to look at these areas, corridors and roads, and make 
determinations based on safety issues as to what improvements 
need to be made. So that is very important as well.
    Senator Barrasso. I have a final question for Mr. Tsosie. 
In February of 2010, the Office of Inspector General issued a 
report on the Department of the Interior roads program, citing 
several concerns including inaccuracies in road inventories and 
prioritizing needs and the inability to adequately detect 
mismanagement or any mis-use of funds. Your response to the 
report noted that the BIA was implementing a corrective plan 
for the inventories. I wonder if you could just bring us up to 
date on the corrective action plan and how you are addressing 
the other concerns of the Inspector General.
    Mr. Tsosie. Two parts of that corrective action plan. One, 
we have an internal committee within the Department of Interior 
composed of the bureaus within the Department of Interior. And 
we meet on a regular basis. And we monitor what is going on on 
a policy level.
    The second part of that is that we did not decentralize or 
we kept these functions out in the field where they belong, 
because that is where the experts are. We are keeping a close 
tab on that.
    The rest of the answer I am going to turn over to Mr. Leroy 
Gishi.
    Mr. Gishi. One of the areas that is very critical to this 
process is the majority of the work that is done in the field 
is performed by Tribal members through contracts under self-
determination. And that is very critical, because for us to be 
able to do that as an agency, whether Federal highways or BIA, 
would be very difficult. The provisions are there within the 
law.
    So for that reason, it is very important to make sure that 
it was understood that bringing these types of activities into 
central office in terms of the actual work, the expert level 
work, was not necessary and that it will continue to be handled 
at the field level. But the policy areas will be handled at the 
central office level.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Barrasso.
    Senator Franken, any opening statement or questions you may 
have.

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Sure, thank you, Mr. Chairman. Thank you 
first for holding this hearing on this important issue, and I 
want to thank all the witnesses for your great testimony.
    I really agree with the Vice Chairman, who said that on 
roads in Indian Country, you have police cars and firefighters 
and school buses and normal, everyday traffic, families and of 
course economic activity, goods and services. So you have the 
need for safe, accessible, well-maintained roads. It is a 
source of economic development. I think that was well put by 
the Vice Chairman.
    I was interested, because Mr. Tsosie, you said that during 
the ARRA, or the Recovery Act, that there were 6,500 jobs 
approximately created in Indian Country. Is that correct?
    Mr. Tsosie. Yes.
    Senator Franken. That was during the Recovery Act?
    Mr. Tsosie. Yes.
    Senator Franken. What some people have referred to as the 
stimulus.
    Mr. Tsosie. Yes.
    Senator Franken. That is interesting to me. Were these 
Tribal contractors, by and large, and workers on the Tribes, on 
the reservations?
    Mr. Tsosie. Initially, the money goes into Indian 
communities and the local communities surrounding Indian 
communities. I can get back to you with a breakdown of, as far 
as the information that we have, about exactly where the money 
went.
    Senator Franken. But it put 6,500 people to work in Indian 
Country building infrastructure?
    Mr. Tsosie. Yes.
    Senator Franken. Okay. That is interesting, because that is 
6,500 more than some of my colleagues on the other side of the 
aisle say that the Recovery Act created, which I think is 
really interesting. Because somewhere, 6,500 jobs are uncreated 
somewhere else, I guess, in the entirety of the Recovery Act.
    I can't agree with the Vice Chairman more that 
infrastructure creates economic development. When I go around 
the State of Minnesota, I have companies talking about getting 
their goods around the State. And yet I hear from members of 
the other side that during the stimulus package, we created 
zero jobs, or the only jobs created were Federal bureaucrats. 
Were these people building the roads in Indian Country, were 
they Federal bureaucrats? Were they like bean counters in the 
GAO or something?
    Mr. Tsosie. The money was used for infrastructure projects.
    Senator Franken. Right.
    Mr. Tsosie. Not bean counters.
    Senator Franken. Yes, that is what I thought.
    Mr. Baxter, in your testimony you say that 27 percent of 
bridges within the Indian Reservation Roads program are 
classified as deficient. And the current backlog to bring all 
Indian reservation roads to adequate condition is $69 billion. 
How would you say the state of the roads and bridges in Indian 
Country compares to those in the rest of the United States?
    Mr. Baxter. That is a good question. As far as the 
percentage of deficient bridges, compared to the States, the 
State side is 24 percent deficient bridges, for local 
governments it is 27 percent deficient bridges, which is about 
the same overall number as the Tribal bridges. The biggest 
difference is the the percentage that are structurally 
deficient. On the State side of the 24 percent, 7.9 percent are 
structurally deficient. For the local percentage, 27 percent, 
15 percent of that is structurally deficient.
    But in Indian Country, for BIA's roads, of the 27 percent, 
20.7 percent are structurally deficient. So what we are seeing 
is a disproportionately higher number of bridges that are 
structurally deficient in Indian Country compared to other 
routes.
    Senator Franken. So we have relatively higher need in 
Indian Country.
    Mr. Baxter. That is correct.
    Senator Franken. Now, under current law, 25 percent of 
Indian Reservation Roads construction funds can be used for 
maintenance, and the rest of the maintenance money comes from 
annual appropriations through the BIA. In States like 
Minnesota, maintenance projects like snow removal and pavement 
preservation can be incredibly expensive.
    Given the backlog, as we have just discussed, are we 
spending enough on road maintenance compared to what we spend 
on new construction? Anybody. And my time has run out, so I 
apologize. But if I can get an answer.
    Mr. Tsosie. On this answer, I am going to defer to Mr. 
Leroy Gishi again.
    Mr. Gishi. That is correct. The provision in SAFETEA-LU 
provided that 25 percent of the funds be used for road 
maintenance. And these are for all IRR roads that are out 
there.
    As we begin to see the Tribes, in the first few years, 
continue to defer to the owner agencies to continue to maintain 
roads, it has in the last few years increased from the 
standpoint of about $7 million to $8 million a year to $32 
million a year. So the Tribes are realizing and making an 
effort to address those roads which are out there, and a lot of 
times they are even utilizing their own funds to be able to 
maintain roads. That is one of the critical areas that are out 
there.
    Senator Franken. Thank you. Thank you all.
    The Chairman. Thank you. Thank you very much, Senator 
Franken.
    Senator Udall, an opening statement or questions.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much, Chairman Akaka, for 
holding this important hearing on Tribal transportation.
    Right now there is much debate about the future of surface 
transportation. As you know, an extension of that surface 
transportation bill is awaiting Senate action. That same 
extension may be held up due to a disagreement on how our 
transportation dollars are spent.
    What we know, however, is that our Nation needs investment 
in our infrastructure. That includes the Tribal transportation 
system. We should not allow political fighting to hold up the 
critical extension, and ultimately a long-term reauthorization 
bill.
    I am pleased to see that Mr. Paulson Chaco will be joining 
us today on the third panel. He serves as the Executive 
Director for the Navajo Nation Division of Transportation. Mr. 
Chaco has a challenging job to address the transportation needs 
of the vast Navajo Nation. In the past, he has worked to 
develop the Navajo Nation fuel excise tax program. This program 
results in $10 million annually for road construction on the 
Nation.
    He was also successful in applying for and receiving a 
TIGER grant to improve a critical section of roadway in New 
Mexico and make it safer for all travelers. I look forward to 
hearing his testimony and that of the other witnesses, and I 
look forward to working aggressively to draft legislation to 
ensure that adequate funding is provided to maintain and 
improve the transportation network in Tribal communities.
    Now, a question for this panel. I am impressed with what 
seems like very positive impacts of SAFETEA-LU and IRR in 
Indian Country. Yet I remain concerned with the growing safety 
and fatality rates that persist. You all have stressed the need 
for increased and sustained funding in the reauthorization of 
SAFETEA-LU. Yet the numbers you have given us, increased car 
and pedestrian fatalities, show that even with this program, 
the issues of safety persist.
    How do we account for the rising numbers of fatalities in 
Indian Country, even after SAFETEA-LU, with its increased 
funding and additional programs, has been implemented? Mr. 
Baxter, why don't you start, then I would love to hear from Mr. 
Tsosie.
    Mr. Baxter. Thank you. In recognition of the continued 
needs for safety in Indian Country, what we have proposed in 
our 2012 budget is that we would have a dedicated safety fund 
for the Indian Reservation Roads program, essentially taking 
about 2 percent of those funds, dedicated specifically toward 
safety projects. We think that will make a major impact.
    We also have within our safety program, our overall 
program, proposed funding for rural safety, up to 10 percent of 
the funds for rural safety. Again, we believe Tribes will 
compete well in that program, and that will offer opportunities 
for projects that would address the safety and fatality issue.
    Senator Udall. Thank you. Mr. Tsosie?
    Mr. Tsosie. Yes, and on this question again, I am going to 
defer to Mr. Leroy Gishi.
    Mr. Gishi. It is important to note that the roads which we 
refer to in the Indian Reservation Roads program are 
traditionally 20 to 30 years behind what the State systems are. 
Many of the roads that are out there were roads that were put 
in place by utility companies, resource companies and were 
never engineered. So when these companies leave, a lot of the 
roads are no longer usable at 55 miles an hour.
    So when we talk about the $69 billion backlog, it really 
reflects the need to bring the system to an adequate standard, 
not overkill, but to an adequate standard. So that is the 
reason why there are a lot of those problems that are out 
there, because of the condition of the roads.
    Senator Udall. I think the point that you are making is 
that, and it cannot be made enough, is that we have to bring 
Tribal roads up to the level of our other roads at the State 
and Federal level. And we need to do that soon because of the 
safety issue. So that is the message that I get from you.
    I very much appreciate Chairman Akaka. He has been very 
aggressive on all of the issues across Native nations, and this 
Tribal transportation is an important one. He once again is 
bringing it to the forefront. Thank you very much.
    The Chairman. Thank you very much, Senator Udall.
    I want to thank this panel. In the interest of time, I will 
send my remaining questions and any questions remaining members 
may have to you for responses. And I want to thank you so much, 
mahalo nui loa, for being here and giving us invaluable 
information that is going to help us deal with the problems 
that we are facing on transportation and jobs.
    So thank you very much, panel one.
    I would like to invite the second panel to the witness 
table.
    Serving on the second panel is the Honorable Jefferson 
Keel, President of the National Congress of American Indians, 
and Mr. C. John Healy, Sr., President of the InterTribal 
Transportation Association.
    Mr. Keel, will you please proceed with your testimony?

STATEMENT OF HON. JEFFERSON KEEL, PRESIDENT, NATIONAL CONGRESS 
                      OF AMERICAN INDIANS

    Mr. Keel. Thank you, Mr. Chairman. Good afternoon, 
Committee members.
    My name is Jefferson Keel. I am Lieutenant Governor of the 
Chickasaw Nation and the President of the National Congress of 
American Indians. I am honored to be here today. I want to 
thank you, Mr. Chairman and Senators, for holding this hearing.
    This is an extremely important hearing and the topic is 
something that is not new to us. In fact, I have testified 
before this Committee on other occasions, even regarding this 
topic. And in the past, we have provided the Committee with the 
national Tribal leadership on transportation priorities for 
Tribes.
    I don't need to reiterate the importance of this. You have 
heard from the previous panel how important it is for Tribal 
members to have access to transportation. The idea that 60 
percent of the system is still under-improved earth in Indian 
communities, of that 140,000 miles that we have talked about, 
and the bridges that are structurally deficient, you have 
already heard.
    The transit, rights of way, safety, and increasing the 
Indian Reservation Roads program and streamlining the process 
through self-determination contracting will greatly enhance our 
efforts. Today, I want to talk a little bit about the job 
challenges and focus on Tribal transportation for sustainable 
economic development. That is something that is very important 
to Indian communities. As this Committee is aware, unemployment 
is high in many Tribal communities. Creating and sustain jobs 
are a significant issue for Tribal leaders and for our Nation. 
Transportation infrastructure is critical in addressing these 
issues.
    Of course, everyone wants to create jobs. But the question 
is, what is the best investment? How can you spend Federal 
funds in a way that creates jobs and also spurs new development 
in the private sector that leads to even more jobs? How can you 
get the multiplier effect moving?
    The answer is, transportation. Every form of development 
starts with transportation. When transport systems are 
improved, they provide economic opportunities and benefits that 
result in positive multiplier effects with new investments from 
business, better accessability to markets and more employment. 
The productivity of land, capital and labor increases with 
improvements in transportation.
    Indian Country gets more out of every transportation dollar 
because so much of what we do is infrastructure development. 
When we pave a dirt road or build a new bridge, there are 
immediate and profound effects on the economy, on the 
businesses and on the lives of the very people that we are 
representing.
    While I am on the subject of jobs, jobs in Tribal 
transportation provide training and skill development for our 
Tribal members in the transportation construction and planning 
fields. Many Tribes have the capacity today to hire architects, 
engineers and planners to help us develop those systems that we 
need. Some Tribes do not. But the fact is, many Tribes are 
engaged in that activity as we speak.
    We need more support for the Tribal Technical Assistance 
Program, which is the only technical assistance program that 
provides education and training to Tribal governments for 
transportation and roads projects. Training and education is 
important to assist in building a viable transportation 
workforce.
    Last week, President Obama proposed the American Jobs Act, 
to establish a national infrastructure bank. We would like to 
have our own Tribal infrastructure bank. This would increase 
the ability of Tribes to obtain funding for a broad range of 
infrastructure projects, especially when Federal spending is 
becoming more limited.
    In closing, as we move forward in addressing these 
challenges, it is critical to realize that Tribal communities 
offer unique innovations that can make significant 
contributions to the policy debate regarding the economy. The 
National Congress of American Indians looks forward to 
partnering with the Committee to ensure that Tribes are 
included in developing and paving the way for Tribal 
transportation.
    Thank you very much.
    [The prepared statement of Mr. Keel follows:]

Prepared Statement of Hon. Jefferson Keel, President, National Congress 
                          of American Indians
    On behalf of the National Congress of American Indians (NCAI), 
thank you for the opportunity to testify on Tribal transportation in 
Indian Country. NCAI is the oldest and largest national organization of 
Indian Tribes in the United States and is dedicated to protecting the 
rights of Tribal governments to achieve self-determination and self-
sufficiency. NCAI looks forward to working with members of this 
Committee to enhance transportation infrastructure and jobs for Indian 
Country.
    Transportation infrastructure development is critical to economic 
development, creating jobs, and improving living conditions for 
individuals and families in Indian Country, and the millions of 
Americans who travel through our reservations every day. Construction 
of transportation systems that allows for safe travel and promotes 
economic expansion will help us strengthen our Tribal communities while 
at the same time making valuable contributions to much of rural 
America. Surface transportation in Indian Country involves thousands of 
miles of roads, bridges, and highways. It connects and serves both 
Tribal and non-Tribal communities.
    Currently, there are over 140,000 miles of Indian reservation roads 
with multiple owners, including the Bureau of Indian Affairs, Indian 
Tribes, states and counties. Indian reservation roads are still the 
most underdeveloped road network in the nation however; it is the 
principal transportation system for all residents of and visitors to 
Tribal and Alaska Native communities. Approximately eight billion 
vehicle miles traveled on Indian Reservation Roads (IRR) Program system 
annually. Many road conditions on Indian reservations are unsafe, 
inequitable and it is the primary barrier to economic development and 
improvement of living conditions. For example, more than 60 percent of 
the system is unimproved earth and gravel, and approximately 24 percent 
of IRR bridges are classified as deficient. American Indians have the 
highest rates of pedestrian injury and vehicle deaths per capita of any 
racial or ethnic group in the United States. These conditions make it 
very difficult for residents of Tribal communities to travel to 
hospitals, stores, schools, and employment centers.
    The passage of a new transportation authorization is imperative for 
Indian Country for construction of roads and bridges; and the 
generation of jobs in Indian Country. As you are aware, Tribal 
communities have faced Depression level unemployment for generations. 
In 2000, when the national unemployment rate was less than 3.5 percent, 
the on-reservation unemployment rate was 22 percent. \1\ The Economic 
Policy Institute reports that the Native unemployment rate has risen at 
a rate 1.6 times the size of the white increase during the recession 
(to 15.2 percent for all Native people). \2\ Jobs and unemployment are 
important issues for this Administration and Tribal leaders, and next 
transportation authorization will help address these concerns for 
Indian and Alaskan Native communities.
---------------------------------------------------------------------------
    \1\ U.S. Census Bureau, Census 2000 Summary File 4.
    \2\ Algernon Austin, (2010), ``Different Race, Different Recession: 
American Indian Unemployment in 2010.'' Retrieved at: http://
www.epi.org/page/-/pdf/ib289.pdf?nocdn=1
---------------------------------------------------------------------------
Jobs In Tribal Transportation
    Transportation infrastructure development not only provides 
economic development but it also provides access to job training and 
employment in transportation related field. Unfortunately, there are 
not adequate unemployment data to show the depiction of accurate 
numbers of unemployment for every Indian Tribes and Alaska Native 
villages. And, it is particularly concerning to us that the Bureau of 
Labor Statistics does not include on-reservation unemployment rates 
(often at levels well beyond 50 percent) in their monthly employment 
reports. This absence means that the unemployment rate for states with 
high Native populations is likely considerably understated, whether 
states with higher than average unemployment rates (as in Michigan or 
Oregon at 14.1 and 12.1 percent, respectively) or lower than average 
(as in Arizona or Montana, at 8.2 or 6.2 percent respectively). The 
role of this data in directing federal appropriations and guiding 
federal, Tribal and state policymaking underscore the importance of 
remedying this situation.
Long-term Job Planning
    In order for any viable economic development growth there must be 
initiatives for workforce development for Tribal and Alaska Native 
communities. To ensure that Indian Country develops and enhances a 
sophisticated skilled Tribal work force in transportation construction 
it is important that Congress consider at long-term job planning. Job 
planning includes job training and skill development; and providing 
employment resources such as entrepreneurship training, resume 
building, internship programs, and referral services.
    The recruitment and need for engineers, planners, entrepreneur and 
other skilled professional within Tribal communities are necessary for 
transportation infrastructure. Tribal colleges and universities can 
play an important role in workforce and skills development, family 
support, and community education services. They are true community-
based institutions, providing the education and skills development 
needed for entrepreneurship and job creation. According to a 2007 
report from the Institute for Higher Education Policy, an associate's 
or bachelor's degree on a reservation may enable a person to create 
jobs by starting a business, foster the spirit of leadership and 
entrepreneurship, and alter negative cultural perceptions of education 
for future generations. \3\ The economic and social benefits of one 
Tribal citizen receiving a college degree are experienced throughout a 
community.
---------------------------------------------------------------------------
    \3\ Institute for Higher Education Policy. (2007). The Path of Many 
Journeys: The Benefits of Higher Education for Native People and 
Communities. Washington, DC: Institute for Higher Education Policy.
---------------------------------------------------------------------------
    Tribal governments can serve as significant incubators of economic 
growth in relation to long-term job planning in general, and in 
innovating areas of transportation infrastructure specifically. To 
address these opportunities in the areas of transportation related 
jobs: supporting job programs such as Temporary Assistance for Needy 
Families, creating transportation related apprenticeship and the 
potential of Tribal colleges and universities to spur job growth to the 
benefit of a range of rural communities.
Tribal Technical Assistance
    The Tribal Technical Assistance Program (TTAP) is the only 
technical assistance program that provides much needed transportation 
related education and training to Tribal governments for transportation 
road projects. Education and certification is important to assist in 
building a viable Tribal transportation work force. In addition, having 
well qualified skilled workers enables Indian Tribes and Alaska Native 
Villages to further develop Tribal transportation infrastructure.
    There are currently seven TTAP centers located around the country. 
TTAP is funded by both the U.S. Federal Highway Administration (FHWA) 
and U.S. Bureau of Indian Affairs (BIA). Currently, each TTAP receives 
$280,000 a year in total funding, which is comprised of $140,000 from 
the Local Technical Assistance Program and $140,000 from the IRR 
program. This totals about $1.9 million for the overall TTAP funding 
each fiscal year to serve all 565 federally recognized Tribes.
    To ensure that the TTAPs are able to meet the increased demand for 
their services and as additional Tribes assume responsibility for 
administering their own transportation programs, NCAI recommends 
Congress to have the U.S. Department of Transportation institute a TTAP 
for each of the twelve BIA Regions. Additionally, NCAI recommends an 
increase to the overall funding of TTAPs from $1.9 million to $4.2 
million each fiscal year. This much needed funding will assist each 
TTAP center to adequately address the increasing need for 
transportation technical assistances.
Infrastructure
    After years of little investment in Tribal infrastructure, America 
faces a national deficit of $14.2 trillion that is prompting federal 
budget reductions that are likely to severely impede economic 
investment and undermine any progress towards establishing an Indian 
Country economy. As federal spending become more limited the need for 
enhancing infrastructure in Indian Country will continue to grow.
    To help address the tough economy and budget deficit, 
infrastructure development is still essential for Tribal economic 
growth. To achieve this there are some issues we would like this 
Committee and Congress to address that would spur infrastructure 
development:

  <bullet> Establishing a Tribal infrastructure bank that would form an 
        independent financial institution owned by the government and 
        Tribes. This would give Tribes the ability obtain funding for a 
        broad range of infrastructure projects, and to be able to sell 
        or issue general purpose bonds to raise funds for lending and 
        investment.

  <bullet> The equitable access to transportation is more critical in 
        rural Tribal communities because many Tribal members do not own 
        personal vehicles and must travel long distances to get to a 
        job or school, or even see a healthcare professional. 
        Supporting the Tribal public transportation is essential to 
        improving transportation infrastructure in Indian Country.

  <bullet> Extending the Indian Self Determination Act and Educational 
        Assistance Act (ISDEAA) to the Department of Transportation and 
        its modal administrations will streamline the negotiation, 
        execution and implementation of grant, contract and funding 
        agreements for federal transportation program funding available 
        to Tribes and more effectively target program dollars to the 
        improvement of our Tribal transportation system.

  <bullet> In order for Tribes to construct road projects or improve 
        existing road routes, Tribes have to go to the Bureau of Indian 
        Affairs to acquire rights-of-way. It has been articulated by 
        Tribes that obtaining the rights-of-way is a frustrating time-
        consuming and costly which hampers the transportation 
        infrastructure development.

Tribal Infrastructure Bank
    Last week, the President proposed the ``American Jobs Act'' that 
included the establishment of a National Infrastructure bank. In the 
proposal, the President has asked Congress to fund the infrastructure 
bank with $10 billion to assist in leveraging with private and public 
capital to invest in infrastructure projects. This would provide the 
ability to fund a broad range of infrastructure projects; it would make 
loans and loan guarantees and leverage private capital. It should be 
able to sell or issue general purpose bonds to raise funds for lending 
and investment, sell specific project bonds when necessary, and invite 
private investment, along with Tribal government pension plan 
investments.
    To address Tribal specific transportation infrastructure needs, 
NCAI would like Congress to establish a Tribal Infrastructure Bank with 
an initial capital investment of $10 million per year for five years. 
Section 350 of the National Highway System Designation Act of 1995, 
Public Law 104-59, authorized the U.S. Department of Transportation to 
establish the State Infrastructure Bank (SIB) Pilot Program. A SIB is a 
revolving fund mechanism for financing a wide variety of highway and 
transit projects through loans and credit enhancement. SIBs were 
designed to complement traditional Federal-aid highway and transit 
grants by providing States increased flexibility for financing 
infrastructure investments. Under the initial SIB Pilot Program, ten 
states were authorized to establish SIBs. In 1996 Congress passed 
supplemental SIB legislation as part of the DOT Fiscal Year (FY) 1997 
Appropriations Act that enabled additional qualified states to 
participate in the SIB pilot program. This legislation included a $150 
million General Fund appropriation for SIB capitalization. Since then, 
Congress has continued to support the SIB program, and specifically 
reauthorized it in SAFETEA-LU.
    The Tribal Infrastructure Bank (TIB) Pilot Program under which 
Tribes would be eligible to obtain infrastructure funds in the form of 
capital investments for use on authorized transportation projects. The 
TIB would operate much like the SIBs. The TIB would be initially funded 
with Federal start-up capital, with the goal of becoming self-
sufficient through its capital lending program. Tribes would be 
eligible to leverage their IRR program and other Federal transportation 
funds to obtain financing from the TIB at reasonable rates as one 
preferred method of the flexible financing techniques described above. 
Loans from the TIB shall not exceed a 20 year period.
Transit
    All transportation infrastructures including transit are important 
to economic growth in Indian Country. Tribal transit is a necessary 
element to transportation infrastructure because it offers Tribal 
members access to employment, health, education and commerce for 
Tribes. Lack of employment has continuously been a difficult issue for 
Tribes. Currently, the approximate unemployment rate for on-reservation 
Indians is 18.6 percent, while for Alaska Native villages it is 25.1 
percent. In addition, 15 percent of Tribal members have to travel over 
100 miles to access basic services such as a bank or ATM. The 
combination of high unemployment and the long distances to travel to 
access basic services result in a great need for public transportation 
infrastructure in Indian Country and surrounding non-Indian rural 
communities.
    In 2005, the enactment of the Safe, Accountable, Flexible, 
Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-LU), 
Public Law 109-59, authorized the U.S. Department of Transportation 
Federal Transit Administration (FTA) to administer Section 5311 (c), 
the ``Public Transportation on Indian Reservations Program'' or as it 
is referred to as, Tribal Transit Program. The purpose of the Tribal 
Transit Program is to fund capital, operating, planning, and 
administrative expenses for public transit projects in rural Tribal 
communities.
    The Tribal Transit Program provides grant transit funding through a 
national competitive process to federally-recognized Tribes. The Tribal 
Transit Program funding level began at $8 million for FY 2006 and 
increased to $15 million for FY 2010. Since the initiation of the 
Tribal Transit Program, FTA has awarded approximately 236 grants to 
Tribes totaling $60 million. However, the total amount requested by 
Tribes who have applied for the Tribal Transit program is approximately 
$189 million. So, even though the amounts that have been awarded thus 
far are a good start on addressing the immense need for public 
transportation in Indian Country, the overall need is much greater.
    Many Tribes utilize the Tribal Transit Program to begin or maintain 
their transit services on Tribal lands. NCAI is conscious of the 
significant role that public transportation infrastructure plays in 
Indian Country, and how much Tribes rely on this transit funding to 
further their transportation infrastructure. It is important Congress 
continues to sustain the Tribal Transit Program.
    NCAI recommends the following: (1.) Funding: increase funding for 
Tribal Transit Program to $35 million for FY2012 with stepped increases 
of $10 million for every year thereafter to $85 million; and (2.) 
Transit Planning: raise the current cap for Transit Planning Grants to 
$50,000. Currently, Tribes are capped at $25,000 to use for planning 
and design. This cap is a hindrance for Tribes who do not possess the 
financial resources to initially establish a reliable transit system on 
their Tribal land.
Extend the ISDEAA to all DOT Programs
    Since the implementation of the Indian Self Determination Act and 
Educational Assistance Act in 1975, infrastructure needs for many 
Tribes have grown. Tribes opted to contract their own services in 
health, government and education, capital-intensive programs, it has 
spurred infrastructure development. New local jobs became available and 
many professional Tribal members returned back to their Tribal 
communities. Because of the diversity of Tribal operations that were 
created as result of building local capacity, Tribal governments were 
elevated to full-time operations.
    Under the past few reauthorizations, Congress has sought to extend 
greater authority to Tribes to carry out the Indian Reservation Roads 
(IRR) Program under ISDEAA agreements with the Bureau of Indian Affairs 
and the Federal Highway Administration. As a result, Tribes have 
succeeded in reducing transaction costs and eliminating 
counterproductive bureaucratic practices in order to maximize federal 
investment in roads infrastructure and to put more people to work.
    Still, conflicting grant conditions and contract requirements 
arising from other federal transportation programs continue to obstruct 
the efficient and cost-effective transportation infrastructure 
development Congress has envisioned for Indian Country. Few Tribal 
governments have the staff or resources for negotiations to conform 
these extensive conditions and requirements to Tribal-specific legal 
and policy considerations or to establish duplicative administrations 
for managing disparate contract and grant requirements--and they should 
not have to. In other agencies, Tribal implementation of federal 
programs under the ISDEAA has allowed Tribes to adopt uniform and more 
cost-effective accounting, management, procurement and reporting 
systems. Under ISDEAA, Tribes spend less on program administration and 
more on program services and activities.
    NCAI recommends the ISDEAA be extended to all Department of 
Transportation (DOT) programs serving Tribes, including programs 
administered by the Federal Highways Administration (FHWA), FHWA-
Federal Lands Highway, Federal Transit Administration, National Highway 
Traffic Safety Administration and other federal transportation 
agencies. Extending the ISDEAA to the DOT and its modal administrations 
will streamline the negotiation, execution and implementation of grant, 
contract and funding agreements and more effectively direct program 
dollars to enhancing our nation's transportation infrastructure system.
Right of Way
    Congress has the opportunity to significantly enhance efficiency 
and cost-savings in infrastructure investment by requiring BIA to 
maintain adequate rights-of-way (ROW) records. Currently, BIA has no 
streamlined process to assist Tribes in securing proof of ROW quickly 
or in processing trust allotted land ROW applications in a short, 
defined timeline. Tribes preparing infrastructure improvements too 
frequently face delays and additional costs in their project 
administration because the BIA lack records of rights-of-way the Agency 
acquired, disposed of, or otherwise transferred long ago. For example, 
right now the Oglala Sioux Tribe has been working on securing BIA 
assistance to examine rights of way in the BIA's Land Title Records 
Office for a 21 mile project on Pine Ridge; to date, BIA has not been 
helpful. This echoes examples for numerous Tribes when attempting to 
develop road projects on Tribal lands. And, the timeline in receiving 
ROW varies depending on many variables including ownership of the road 
(State, county, BIA, or Tribal route), the length in miles of the 
project, the reservation, whether the project crosses fee, restricted 
fee, allotted, or trust lands, whether the project is new construction 
or reconstruction of an existing route, the agency or regional office 
involved, the Tribe involved, etc.
    To mitigate delays, NCAI recommends this Committee and Congress to 
require that BIA respond to a Tribe's request for right-of-way 
documentation for routes on its priority construction list within 120 
days. If the BIA lacks right-of-way documentation, the BIA--and not the 
Tribe--should be responsible for the costs associated with obtaining 
enforceable rights-of-way. To fulfill this objective, NCAI proposes 
that Congress launch a $10 million initiative for the Department of 
Interior to catalogue, organize, update and computerize right-of-way 
documentation.
Safety
    State governments spend between $4,000 and $5,000 per road mile on 
state road and highway maintenance. In contrast, road maintenance 
spending in Indian Country is less than $500 per road mile. Indian 
Country has an unmet immediate need of well over $258 million in 
maintenance funding for roads and bridges. Tribal members and 
communities are threatened by unsafe and often inaccessible roads, 
bridges, and ferries. Indian people suffer from injury and death by 
driving and walking along reservation roadways at rates far above the 
national average. According to Center Disease Control, ``American 
Indians and Alaska Natives (AI/AN) are at increased risk of motor-
vehicle related injury and death with rates 1.5 to 3 times higher than 
rates for other Americans.'' \4\ And, other data shows 5,962 fatal 
motor vehicle crashes were reported on Indian reservation roads between 
1975 and 2002 with 7,093 lives lost. The trend is on the increase, up 
nearly 25 percent, to over 284 lives lost per year in the last five 
years of study. While the number of fatal crashes in the nation during 
the study period declined 2.2 percent, the number of fatal motor 
vehicle crashes per year on Indian reservations increased 52.5 percent. 
American Indians also have the highest rates of pedestrian injury and 
death per capita of any racial or ethnic group in the United States.
---------------------------------------------------------------------------
    \4\ Center for Disease Control, Injuries Among American Indians/
Alaska Natives (AI/AN): CDC Activities (2011), http://www.cdc.gov/
motorvehiclesafety/Native/research.html.
---------------------------------------------------------------------------
    Tribal communities share many similar concerns and obstacles as 
rural communities in addressing how to improve the safety needs. NCAI 
has worked diligently with Tribal governments to find solutions for 
improving the safety and infrastructure of Indian Country. Presently, 
Tribes receive a two percent set aside of the total allocation from the 
National Highway Traffic Safety Administration (NHTSA); the funding is 
then allocated to BIA where the BIA Highway Indian Safety Program 
administers the programs. The purpose of this program is to assist 
Tribes with their proposed highway safety projects, which are intended 
to reduce traffic crashes and impaired driving crashes; increase 
occupant protection education; provide emergency medical service 
training; and increase police traffic services. The two percent set 
aside is equivalent to $14 million annually, and it is a competitive 
grant process. NCAI has heard concerns from Tribal leaders about the 
inadequate effectiveness of the BIA Highway Indian Safety Program. In 
the past, there has been significant employee and leadership turnover 
within the BIA office. This has created a lack of guidance and support 
to Tribes. For example, Tribes have been denied competitive grant 
funding, but were not informed of the reasons for the denial. As a 
result, Tribes contacted the office for a rationale for denial but were 
not provided assistance nor a return phone call.
    NCAI recommends this Committee and Congress assist in confronting 
the high injury and fatalities on Tribal roadways and to resolve the 
concerns about the BIA Highway Indian Safety Program by (1) 
establishing a two percent Tribal funding set-aside within the High 
Risk Rural Roads Program, (2) creating a new Tribal Traffic Safety 
Program within the FHWA-Federal Lands Highways office, and (3) funding 
each NHTSA, at $50 million annually to dramatically reduce the 
incidence of death and injury on America's Indian reservation roads. 
The creation of these new programs would help to reduce the safety and 
behavioral problems that contribute to the high rates of death and 
injury on Indian reservation roads.
Gas Excise Tax
    To date, there are over 140,000 miles in the Indian Reservation 
Roads (IRR) system but yet it is the most underdeveloped road network 
in the nation, \5\ and it is the primary transportation system for all 
residents of and visitors to American Indian and Alaska Native 
communities. Over two-thirds of the roads on the system are unimproved 
dirt or gravel roads, and less than 12 percent of IRR roads are rated 
as good. \6\ The condition of IRR bridges is equally troubling. Over 25 
percent of bridges on the system are structurally deficient. \7\
---------------------------------------------------------------------------
    \5\ Bureau of Indian Affairs, Transportation Serving Native 
American Lands: TEA-21 Reauthorization Resource Paper (2003).
    \6\ Id.
    \7\ Id.
---------------------------------------------------------------------------
    Tribal economies, education systems, health care and social service 
programs are threatened by unsafe and often inaccessible roads, bridges 
and ferries. A recent Federal traffic safety study showed that Indian 
Tribes suffer the highest per capita traffic fatality rate in the 
Nation, more than four times the national average. \8\ Each year, 
drivers on the IRR system travel over 2 billion vehicle miles on a 
system that is a clear health and safety hazard for our communities and 
an impediment to meaningful economic development. \9\
---------------------------------------------------------------------------
    \8\ National Center for Statistics and Analysis, Fatal Motor 
Vehicle Crashes on Indian Reservations: 1975-2002, (2004).
    \9\ BIA Paper, supra note 1.
---------------------------------------------------------------------------
Funding for Tribal Transportation Systems
    The current scheme for funding surface transportation in the United 
States is based on a federal-state motor fuel taxation regime that 
precludes Tribes from participating in the system on an equitable 
basis. While the system of using federal fuel tax revenue for road 
construction and state fuel tax revenue for maintenance has worked to 
dramatically improve roads in many parts of the nation, it has failed 
miserably in Indian Country.
    Like states, Indian Tribes receive some funding for road 
construction from the federal Highway Trust Fund, but the amount given 
to Tribes is much less than what states receive. Currently, Indian 
Reservation Roads make up nearly three percent of federal roadways, but 
they receive less than 0.5 percent of total federal highway funding. 
\10\ At the current funding levels, the IRR program receives only about 
half the amount per road mile that states receive.
---------------------------------------------------------------------------
    \10\ U.S. Dept. of Transportation, Federal Highway Administration, 
TEA-21, A Summary (1998).
---------------------------------------------------------------------------
    The Federal Government also makes some funds available to Tribes 
for IRR maintenance under the BIA Maintenance Program. This Program is 
also woefully inadequate. The BIA spends less than $1000 per mile for 
road maintenance, compared to estimates of $4,000-$5,000 per mile used 
by states to fund non-IRR maintenance. \11\ Moreover, the states, who 
receive federal funding for their own roads that fall within 
reservations, frequently shirk their obligation to improve or maintain 
these roads and instead siphon off the funds for use elsewhere. \12\
---------------------------------------------------------------------------
    \11\ Brief of Amicus Curiae the Inter-Tribal Transportation 
Association in Wagnon v. Prairie Band of Potawatomi, available at 
http://www.narf.org/sct/richardsvpbp/ITA%20amicus%20final.pdf.
    \12\ Id.
---------------------------------------------------------------------------
    Faced with a severe inadequacy of funding from federal and state 
sources, Tribal governments have looked for other sources of revenue, 
including levying their own motor fuel taxes. While Tribes have the 
same authority as other governments to collect taxes, the ability of 
Tribes to tax fuel on Tribal lands has been severely diminished by the 
Supreme Court. The Court has upheld the authority of the states to 
reach onto Tribal land to collect a state motor fuel tax. The dual 
taxation that would result if both states and Tribes impose a motor 
fuel tax makes it impractical for Tribes to generate revenue through 
motor fuel taxes. Although some Tribes and states have been able to 
negotiate motor fuel tax revenue-sharing agreements, those cases are 
the exception rather than the rule. In most areas, the state 
governments' collection of motor fuel taxes in Indian country displaces 
the ability of Tribal governments to collect motor fuel taxes.
    NCAI encourages this Committee to explore alternate sources of 
revenue for reservations roads. Given the dire conditions of 
reservation roads, it is unconscionable that the IRR program does not 
enjoy parity with the amount given to other governments through the 
Highway Trust Fund. NCAI feels strongly that this inequity of 
distribution must be addressed in whatever new system is devised to 
fund transportation systems across the nation. In addition, if motor 
fuel taxes are to remain the primary source of funding for road 
construction and maintenance, we urge the Committee to recommend that 
Congress clarify authority of Indian Tribes to collect this tax on 
Tribal lands. Finally, if the Committee recommends a dramatic change to 
the way revenue is raised for transportation costs, NCAI recommends 
that any such system be devised in a manner that treats Indian Tribal 
governments equitably and gives them the same authority as state and 
local governments to raise revenue to fund the costs associated with 
building and maintaining transportation infrastructure.
Conclusion
    This testimony has highlighted the unique challenges Tribes and 
their members have faced for generations. NCAI's member Tribes, and 
their citizens, face significant challenges--particularly in the midst 
of the budget reduction climate. However, as we move forward in 
addressing these challenges, it is critical to realize that Tribal 
communities offer unique innovations that can make significant 
contributions to the policy debate regarding the economic crisis and 
the prospects for a fair and equitable recovery for all Americans. 
Indian Tribes recognize that transportation infrastructure is vital to 
the enhancement of Indian Tribal economic development and to provide 
safe and reliable transportation infrastructure to Tribal communities 
and surrounding non-Tribal areas. NCAI look forward to partnering with 
the Committee, as critical members of the federal policymaking 
community, to ensure Tribes are included in developing and paving a way 
for Tribal transportation.

    The Chairman. Thank you very much, Mr. Keel, for your 
testimony.
    Mr. Healy, will you please proceed with your testimony?

  STATEMENT OF C. ``JOHN'' HEALY, SR., PRESIDENT, INTERTRIBAL 
                   TRANSPORTATION ASSOCIATION

    Mr. Healy. Thank you, Mr. Chairman, members of the 
Committee.
    Senator Franken. Mr. Healy, I really apologize. I have to 
leave, but thank you for your testimony, and I will be 
absorbing it. Thank you.
    Mr. Healy. Thank you. Nice to meet you. I liked Saturday 
Night Live.
    [Laughter.]
    Senator Franken. Thanks for remembering.
    [Laughter.]
    Mr. Healy. Good afternoon, members of the Committee, Mr. 
Chairman, staff. I would just like to thank everybody for 
holding this hearing on this very crucial issue for Indian 
Country. I would also like to thank my Native brothers and 
sisters in the back of me for attending. As you can see, it is 
a very important subject we are taking up today.
    As President of the InterTribal Transportation Association, 
our founding father, so to speak, we were created and organized 
back in 1993 with the hopes of having a seat at the table, as 
we are here today. Back then, Tribal transportation was of 
course just being recognized and Tribes were just starting to 
get into Tribal transportation. So I am glad to see that we 
have actually come a long way since 1993 with the help of our 
congressional delegations, dedicated staff, such as Mark.
    So we have come a long way in Tribal transportation over 
the years. Of course, we would like to continue that. We have, 
in my written comments that I submitted, I have many points I 
brought up, which I won't go into them all right now. But I 
agree with much of what has been said so far as far as 
streamlining the process. I attended the roundtable here in 
May. I also submitted some testimony then. In that I mentioned 
some of the points about streamlining.
    As far as advocating for Indian Country, we partnered with 
NCAI back in 2007. We formally created the NCAI-ITA Joint Task 
Force on Tribal Transportation. Within that group, we have 
created, you have probably seen the national leadership paper, 
it was called, or white paper. In that, it points out many 
areas that the Tribes are concerned with as a whole across the 
Country.
    We have tried to garner comments from Tribes across the 
Country on common Tribal transportation issues, and of course, 
over the last year or so, it has been concentrating on 
reauthorization and some of the funding levels the Tribes would 
like to see in the next Highway Bill.
    Of course, the continued funding of these programs would be 
much appreciated. Being that ITA represents Tribes across the 
Nation, small, medium and large, we try to not really get into 
the controversial issues. However, there are some issues out 
there of controversy. But as was mentioned by panel one, those 
issues are being addressed.
    Some of the funding issues, I will touch on these real 
quick, of course we would like to continue funding of the IRR 
program. Continued funding for transit, transit is a very, very 
important avenue for Tribes out there to pursue. There are many 
Tribes into Tribal transit now. It goes along with the 
sustainability and livability concepts that DOT has adopted as 
well. Because as Native Americans, of course, some of the areas 
we live are very isolated. So having a Tribal transit system 
comes in very handy for a lot of people. It gets them to jobs, 
school, many college students use these Tribal transit systems. 
Students, elderly, it is open to the public and it saves people 
a lot of money plus it is directly tied into economic 
development as well. So we would like to continue our Tribal 
transit program.
    The streamlining, we have some suggestions in our packet 
about streamlining funding, some direct funding is needed for 
some of the programs. With that, Mr. Chairman, you have my 
written testimony and I will answer any questions that you 
have.
    Thank you.
    [The prepared statement of Mr. Healy follows:]

 Prepared Statement of C. ``John'' Healy, Sr., President, InterTribal 
                       Transportation Association
    Thank you for this opportunity to provide testimony today.
    On behalf of the InterTribal Transportation Association (ITA), 
Executive Committee and Member Tribes we formally submit these written 
comments at the Senate Committee of Indian Affairs (SCAI), Hearing 
today.
    ITA's involvement with NCAI, and our involvement in the development 
of the National Tribal Leadership Paper on Tribal Transportation (White 
Paper), is in line with our Strategic Plan Objectives. Since ITA 
inception (circa 1993), one of the goals was to partner with 
organizations to assist in getting the Tribes voices heard. I believe 
we have accomplished this over the last four years, without this 
partnership I don't think we would have developed such a comprehensive 
document.
    We must show unity to the furthest extent possible, there is 
strength in numbers, there will always be issues we have differences 
on, however let us show unity on the big issues that will help us 
prosper as a Nation, as a family.
    We have for many years viewed the Indian Reservation Roads (IRR), 
Program as a Jobs Program at the local reservation level. Each year our 
construction crews employee many enrolled members which supports their 
families not only during the construction months but year round.
    This is why were pleased to hear in the President's speech of his 
plan for job creation to reinvigorate the economy.
    We support the rebuilding our deficient roads and bridges. There is 
no shortage of these roads on reservations across the nation.
    We support the ``American Jobs Act.''
    Moving Ahead for Progress in the 21st Century (MAP-21):
    The Senate Environment and Public Works Committee (EPW): released 
an bipartisan outline titled, Moving Ahead for Progress in the 21st 
Century, or MAP-21 in mid-July. The bill supports is a 2 year 
reauthorization with a total cost of $109 billion or $54.5 billion a 
year. There is still the issue of how to pay for this bill, and it will 
be up to the Senate Finance Committee to figure this out, and as 
mentioned numerous times raising the gas tax is not an option.
    We support President Obama's jobs bill and the benefit it will have 
for Indian Country.
Areas That Can Be Addressed During the Reauthorization Process
    Key points that address needed improvements to Tribal 
transportation.

        1)  Fund the IRR Program with annual 50 million dollars 
        increases starting at 800 million in FY-12 and increasing 
        annually reaching 1,050,000,000 in FY-16 and restore the 
        obligation limitation deduction exemption that existed for the 
        IRR Program under ISTEA.

        2)  Increase funding for BIA Road Maintenance Program to at 
        least 150 million annually

        3)  Increase FTA's Tribal transit Grant Program to:

          FY 2012: $35,000,000
          FY 2013: $45,000,000
          FY 2014: $55,000,000
          FY 2015: $65,000,000
          FY 2016: $75,000,000

        4)  Increase funding for IRR Bridge Program to:

          FY 2012: $75,000,000
          FY 2013: $87,500,000
          FY 2014: $100,000,000
          FY 2015: $100,000,000
          FY 2016: $100,000,000

        5)  Enforce the statutory requirement in SAFETEA-LU which 
        mandates the BIA to make IRR Program funds ``immediately 
        available'' for Tribes within 30 days of the BIA's receipt of 
        funds from FHWA.

        6)  Simplify the award process by which Federal transportation 
        funds are distributed to Tribes by creating uniform grant 
        eligibility, application, and administration criteria

        7)  Develop model funding agreements for use by DOI and DOT to 
        facilitate the efficient transfer of transportation funding and 
        program authority to the Tribes.

        8)  Increase the number of DOT Programs which Tribes may 
        participate in as direct funding recipients from the Federal 
        Government, rather than as sub recipients through the States.

        9)  Establish a Federal Lands Highway Safety Program for Indian 
        reservation roads, establish a Tribal set aside for the High 
        Risk Rural Road Program, Increase funding to the TTAP's to at 
        least 2.5 million annually.

        10)  Promote the use of innovative financing techniques in 
        standard Indian Self- Determination contracts and self 
        governance agreements to provide Tribes with better tools to 
        reduce their road construction backlog.

        11)  Carry out Right of Way reform in Indian Country to reduce 
        costs and expedite the design, construction and reconstruction 
        of Tribal roads and bridges.

Indian Reservation Roads (IRR), Issue
    Various Tribal Organizations such as Council of Large Land Based 
Tribes, MT-WY Tribal Leaders Council, Transportation Sub-committee, & 
the Great Plains Tribal Chairman's Association have voiced their view 
on several issues/concerns regarding the implementation of Question #10 
of 25 CFR Part 170, Subpart C, Indian Reservation Roads Program over 
the last several years (since 2006).
    ITA has membership from small, medium and large Tribes, therefore 
we have been very careful in our comments, we would however like to 
offer our assistance in this matter in the way of facilitating meetings 
to come up with solutions to the matter. This also falls within our 
Strategic Plan.
    The large land-based and rural Tribes are losing millions of 
dollars because the BIA is misinterpreting the provisions of SAFETEA-
LU. Dollars continue to hemorrhage from our reservations and people to 
those BIA Regions that have included countless miles of state and 
county roads. With this, the IRR program has become a program dominated 
by state and county roads within the inventory that drives the funding 
formula.
    Over the past four years Large Land Based Tribes have expressed 
their concerns with regard to the ``uncontrolled implementation'' of 
the IRR Inventory system due to a misapplication and/or erroneous 
interpretation of 25 CFR 170 on numerous occasions with little or no 
response. This correspondence also included language which provided 
recommended solutions to the misapplication of the regulations.
    This has proven to be detrimental to large land-based Tribes. There 
are critical issues the BIA and FHWA must address in order to arrest 
the uncontrolled implementation of inventory data that is allowing non-
BIA and non-Tribal roads to generate enormous formula amounts.
    Tribes have been told the only way to fix the problem is when 
reauthorization of the Federal Highway Bill is being considered.
The Time Is Now
    Tribes have been very frustrated in attempting to get some action, 
much less even a response to our concerns. The issue of uncontrolled 
inventory updates, the issue remains urgent to large land-based Tribes 
since they deal with massive on-reservation vehicular transportation 
needs. Needs arise from Tribal and BIA roads, and meeting them relies 
primarily on IRR funding. The geographic isolation of most large land-
based Tribes prohibit them from competing in a system of adding 
Interstates/NHS highways, State and County roads onto the IRR system 
just to reap the inflated formula amounts. Also most large land-based 
Tribes' priorities are not others' interstate or state roads, but the 
very roads they must travel to get the basic medical and educational 
services. On the BIA system alone, there is a documented backlog of $13 
Billion just to improve the system to a safe and adequate standard. At 
present funding levels, and without further deterioration of the 
system, it would take 28 years to address this need. Allowing State and 
County roads into the IRR system simply to generate funding is 
siphoning off critical road construction funding for Tribes whose only 
source of funding is the IRR program.
    The direct nature of the Tribes comments is a reflection of the 
frustration the Tribes have experienced over the last several years 
attempting to elevate this issue, however it is in no way intended as 
an indictment of any Tribal entity or of the BIA/FHWA itself. In fact 
we are confident that this problem can be solved and that 25 CFR 170 is 
workable regulation.
    Increased IRR funding three and four fold by inappropriately 
applying the regulations regarding generation of funding on state, 
county, and proposed routes that have been added to the IRR Inventory.
    The core issues regarding the uncontrolled implementation of the 
IRR Inventory. The heart of this issue is threefold and includes; 
relaxing the protocol which requires minimum attachments supporting 
each update; inconsistent interpretation of the Program regulations at 
25 CFR 170 and in defining an ``Indian Reservation Road''; and allowing 
an uncontrolled expansion of the IRR system.
Solution
    Minimum Attachments must be required. Explicitly defined 
Attachments were originally required in the IRR road inventory update 
process to substantiate each request. These requirements provide a 
fundamental tool to the BIA for quality assurance of each update. In 
order to concur with a recommended update, BIA officials must at least 
be assured that the facility exists (section photo), that the 
documented physical attributes of the facility are accurately reflected 
in the database (representative section photo), that facility ownership 
is confirmed and post-improvement maintenance responsibility is 
acknowledged (MOA Owner Agreement), and that each facility is 
incorporated into the Tribal Long Range Transportation Plan (LRTP). It 
is inconceivable to think that waiving the requirement of these 
fundamental tools results in an adequate, representative IRR database. 
In fact, this measure is counterproductive, at the least requiring more 
in-depth, time-consuming inquiries at the Regional/BIADOT level, or, 
more likely, simply disregarding the confirmation process and approving 
unverified records.
    It is also recommended that surface condition ratings be 
supplemented by a wearing surface calculation worksheet along with 
representative photo to verify published indices. Being somewhat 
subjective by nature, backup documentation will result in more 
accurate, objective results in incorporating SCI into the crucial CTC 
calculation.
    An Indian Reservation Road ``providing access to an Indian 
reservation or Indian trust land'' must be interpreted consistently. 
Vague, inconsistent interpretations of IRR roads have resulted in gross 
misrepresentation of the relative need across Indian country. Refining 
the regulations did not redefine the definition. We recommend that 
federal officials provide written guidance and direction in defining 
precisely what qualifies as an IRR and provide training to all BIA 
Regional Road Engineers and BIA/DOT personnel to ensure uniformity and 
consistency in the interpretation and application of the update 
process.
    Many reservations possess a network of Tribal roads which provide 
public rural local access to remote Tribal lands within the exterior 
boundaries of the reservation. These routes are included on the IRR 
system as construction need miles to support the economic development 
of large land-based Tribes. In order to promote Tribal self 
determination through economic development as it was intended, these 
facilities must be enhanced. Contesting, or otherwise rejecting these 
routes from inclusion as a Rural Local road, regardless of the surface 
type, prevents the LLBT's from quantifying their relative need, which 
is ultimately reflected in the distribution of Program funds.
    Large land-based Tribes are generally located in remote/rural areas 
in which a majority of the public access roads are BIA or Tribally 
owned. In order to enhance public health and safety on these 
facilities, we are solely reliant on IRR Program funds. As funds are 
shifted to roads owned by state and local governments, the trust 
responsibility of the federal government is severely compromised, in 
turn jeopardizing the general health and welfare of the traveling 
public on these facilities.
    There are thousands of miles of non-BIA/Tribal routes on the IRR 
inventory that are not in compliance with 25 CFR 170. By regulation, at 
25 CFR 170 Appendix C to Subpart C, under no circumstances should any 
non-BIA/Tribal route generate 100 percent funding. Likewise, National 
Highway System/Interstate highways should never generate funding. 
County-owned facilities which meet the precisely established criteria 
(as recommended above) of an IRR road shall generate at the federal 
sliding scale percentage, however state-owned facilities, which meet 
the precisely established criteria of an IRR road, shall not generate 
funding unless a project exists for said route, and then only at the 
non-federal share until construction of the facility. NonBIA/Tribal 
roads, particularly state-owned roads, are adequately maintained and 
funded through 23 USC and state-owned roads were never intended to be 
included in ascertaining the relative need of Indian Tribes.
    The IRR Inventory has experienced an unprecedented growth rate in 
the past 3 years. Of particular significance is the expansion of the 
very definition of an IRR road. Inconsistent determinations of IRR 
eligible facilities have resulted in a skewed system which is 
detrimental to those Tribes who rely solely on the IRR Program to 
address public health and safety on public roads within Indian 
reservations. BIA must limit the growth rate of the Program to a 
respectable, realistic level.
    Proposed roads have had a major impact on the funding distributions 
in the IRR Program. These forever funded facilities include numerous 
miles which will never be built, but are simply added to the database 
to generate funding. A well-established justification in the LRTP must 
be submitted with each update to assure that these proposed roads are 
in fact included in the future development plans of the respective 
Tribe(s) as a project. Further, proposed roads should only generate 
funding for up to five years, at which time inactivity results in CTC = 
0 VMT = 0.
    In order to assure that Road Inventory Field Data System (RIFDS) 
records portray the spirit and character of the IRR Program, a review 
team consisting preferably of Tribal officials or an outside, impartial 
review team should be employed to assess the interpretation of BIADOT 
and assure each submitted record lies within the scope of the 
regulations.
    In accordance with 25 CFR 170.444(f), the BIA provides each Tribe 
with copies of the Relative Need Distribution Factor (RNDF) 
distribution percentages by August 15 of each year. Providing this 
information allows Tribes to plan and prepare the IRR Program for the 
upcoming fiscal year, including preparing budgets and funding 
Agreements; procuring materials, equipment, and manpower for upcoming 
projects; and identifying projects to be including onto the Tribal 
Transportation Improvement Program (TTIP). However, the FY 2008 
distribution percentages were not published until July 2008. This 
situation creates an extreme burden on the Tribes in their efforts to 
deliver an efficient, productive Program from year to year.
Issue
    Another concern which is directly related to the funding issues, is 
the BIA DOT review and approval of RIFDS records. The Program 
regulations, at 25 CFR 170.444, explicate the process by which the IRR 
inventory is updated. In order to provide the RNDF distribution 
percentages by August 15th.
Solution
    Action must be taken on the inventory update submittals, i.e. they 
must be approved or rejected, and discharged within this timeframe. 
There has been no consistency in this process since the promulgation of 
the Final Rule in 2004. Communication is obviously the missing element 
in delivering this process with efficiency and accuracy, particularly 
in providing feedback to the Regional offices regarding the records 
submitted by the Tribes. The BIA must correct this process and take 
action on RIFDS records in order that these overriding issues do not 
continue to trickle down to the Tribal programs, hindering our 
abilities to function efficiently and productively.
    The Montana/Wyoming Tribal Leaders Council have identified many 
issues and shared with
    Mike Black, Director Of The Bureau Of Indian Affairs on April 30, 
2010
    Regulations governing the Indian Reservation Roads program are 
having a negative effect on how funding is calculated for Land Based 
Tribes and Tribes seek to rectify those issues through the 
administrative process. Issues that were brought to Mr. Black's 
attention were as follows:

    <bullet> Bogus data being allowed into the IRR inventory:

    Surface Condition Ratings require a visual inspection of the road 
surfaces and a mathematical calculation to determine the Pavement 
Condition Index (PCI). Many of the paved surfaces of roads owned by 
Agencies other than the BIA or Tribes are given a rating of exactly 60 
or below. It is theoretically impossible to derive a pavement rating of 
60 when applying the many components of field data that must be 
considered in the calculation of the pavement rating.
    Field observations of surface conditions were not conducted and 
actual calculations were not made on thousands of miles included in the 
IRR inventory.
Solution
    All non-BIA system roads included in the IRR inventory be reviewed 
for accuracy and all routes that do not have evidence of an actual 
computation of the PCI be removed from the system.

    <bullet> Tribes are allowed to include roads in the inventory that 
are not located within or provide access to the reservation or trust 
lands.

    25 CFR 170.5 defines an Indian Reservation Road as ``a public road 
that is located within or provides access to an Indian reservation or 
Indian trust land, or restricted Indian land that is not subject to fee 
title alienation without the approval of the Federal government, or 
Indian or Alaska Native Villages, groups, or communities in which 
Indians and Alaska Natives reside, whom the Secretary of the Interior 
has determined are eligible for services generally available to Indians 
under Federal laws specifically applicable to Indians.''
    The BIA is allowing Tribes to include State (including Federal 
Highway System roads) and County roads into their IRR inventory that 
are not located within nor do they provide access to the reservation or 
trust lands. In several cases, these routes are allowed to generate IRR 
funding at 100 percent.
    It is our understanding that a road that provides access to an 
Indian reservation or trust lands must physically connect to the 
reservation or trust land. We know of a Region that is allowing State 
and County roads into the system that are 10 to 15 miles away from the 
reservation.
    We are requesting that all routes that do not physically connect to 
the Reservation or Trust lands be removed from the system.

    <bullet> Certain Tribes are allowed to generate funding on State 
and County roads included in the inventory without evidence that a 
project will ever be constructed on the route.

    The 3rd category of Question 10 of Appendix C to Subpart C, 25 CFR 
170, stipulates that ``The facility is eligible for funding for 
construction or reconstruction with Federal funds, however, the Public 
Authority responsible for maintenance of the facility provides 
certification of maintenance responsibility and its inability to 
provide funding for the Project.
    23 USC 101(a) definition of a project is as follows: The term 
``project'' means and undertaking to construct a particular portion of 
a highway, or if the context so implies, the particular portion so 
constructed or any other undertaking eligible for assistance under this 
title.''
    The same Section defines Construction as follows: The term 
``Construction'' means the supervising, inspecting, actual building, 
and incurrence of all costs incidental to the construction or 
reconstruction of a highway.
    There are thousands of miles of roads owned by others (States and 
Counties) that are included into IRR inventory and generating funding, 
(many miles generating at 100 percent) without any evidence that a 
project or any type of construction is planned on the route. The BIA is 
encouraging and allowing Tribes to include routes owned by others into 
the IRR inventory only to generate funding.
    We are requesting that all non-BIA system routes that do not have a 
project agreement in place with the owning agency be removed from the 
system.

    <bullet> Some Tribes are allowed to generate funds over and above 
the local match/non-Federal Federal share amount.

    Tribes in certain Regions are allowed to generate IRR funding at 
100 percent on State and County routes. On approved projects, Tribes 
can coop a project with another Public Authority, however the funding 
they provide for the project is limited to the non-Federal share or 
local match.
    23 U.S.C. states: ``Before approving as a project on an Indian 
reservation road any project eligible for funds apportioned under 
section 104 or section 144 of this title in a State, the secretary must 
determine that the obligation of funds for such project is 
supplementary to and not in lieu of the obligation, for obligation of 
funds for such project is supplementary to and not in lieu of the 
obligation, for projects on Indian reservation roads, of a fair and 
equitable share of funds apportioned to such State under section 104 of 
this title.''
    We are requesting that all non-BIA routes that are generating IRR 
funds over and above the non-Federal share be removed from the system.

    <bullet> Other Issues

    We are also requesting to begin start a dialog on the following 
issues:

    <bullet> Definition of Access
    <bullet> Definition of Indian Reservation Road
    <bullet> Legality of Question 10
    <bullet> Definition of Project
    <bullet> Proposed Roads
    <bullet> Road Maintenance
    <bullet> Establishment of and Inventory Oversight Committee
    <bullet> Comprehensive Inventory by Federal Highway Administration

    On June 3-4, 2009 I was honored to attend several meetings in our 
nation's capitol with a delegation of Tribal leaders from the Rocky 
Mountain Region.
    As we were leaving the U.S. Capitol Building and walking through 
the Rotunda I couldn't help but to think about the history of the 
United States. More specifically the history of the Native American 
relative to transportation as many of the highways that exist to this 
day are built over the path of a hunting trail or path the Native 
American traveled. This gave me a renewed strength to advocate for the 
interest of the ITA Executive Committee and member Tribes. I believe 
these DC trips were beneficial for ITA and our member Tribes.
    It was with the people in mind that ITA was formed on that blustery 
day in May of 1993 in Polson, Mt. Formed so we may go forth into the 
future with one thought in mind, with one ideal in mind, and with 
service to the people in our heart.
    I think we can all agree that to build strong Tribal nations, 
Indian Tribes must build a transportation infrastructure that permits 
safe travel and promotes economic expansion. Connecting people within 
Tribal communities and Tribal communities to the surrounding area means 
greater economic development and improved delivery of Tribal government 
services. Yet many Indian reservation roads and bridges are known more 
for their impassable condition than for their use as a safe means of 
transportation. The poor condition of many Tribal roads and bridges 
jeopardizes the health, safety, security and economic well-being of our 
Tribal members. Tribal roads and bridges are often in such disrepair 
that children are prevented from attending school, sick and injured 
people are prevented from reaching hospitals and emergency responders 
are delayed in providing timely assistance to people in need.
    It is with that thought in mind that we must move on and be 
persistent in our efforts to continue the educational process for our 
people.
    The SCAI timely leadership can help Tribes expand on the gains that 
have been made in the transportation arena. We look forward to working 
with you and your staff to continue improving the quality of 
transportation infrastructure for the benefit of our Tribal members and 
our surrounding communities.
    I thank you for this opportunity to submit these written comments.

    The Chairman. Thank you very much, Mr. Healy, for your 
testimony.
    This question is for both of our witnesses. One of the 
recommendations the Committee has heard throughout the years is 
that Tribes need direct access to more transportation programs. 
And we would like to pursue that line. So my question to both 
of you is, in your view, do your members have the capacity to 
carry out safety and other programs now handled through the 
States? Mr. Keel?
    Mr. Keel. Thank you, Mr. Chairman, for that question. The 
answer is yes, there are some Tribes that have the capacity to 
carry out all those programs, safety, planning, engineering, 
event the architecture. There are some Tribes that simply do 
not, because of their infrastructure and their Tribal structure 
itself.
    But the transit program, having access to more of those 
programs, in fact, the Jobs Act, the Jobs bill, included in 
that Jobs bill was $310 million, I believe, for the Indian 
Reservation Roads and Tribal transportation. Of that, there is 
only $7 million that was provided for the transit program, 
which is a competitive grant program.
    So $7 million doesn't go very far when you have 565 Tribes 
competing for those dollars. So we would ask that that be 
increased, so that those Tribe that do have the capacity for 
planning and taking some of those programs could access those 
funds and thereby help greatly.
    Additionally, there are Tribes that have a good working 
relationship with the State departments of transportation. 
Those Tribes do a very good job of managing those programs and 
working in partnership with them. There are some Tribes who do 
not, and who do not enjoy that same level of cooperation.
    I hope that answers your question.
    The Chairman. Thank you very much. Mr. Healy?
    Mr. Healy. Thank you. Yes, I believe many Tribes out there 
do have the capacity. We hear success stories all the time 
about Tribes working with States and/or counties on their 
particular projects. Most recently, there has been a lot of 
success in Tribes working with the Public Lands Highway 
discretionary grants. Of course, those were supposed to go 
through the State as well.
    But with some of the new direct funding agreements that 
have been created over the last few years, the Tribes do get 
direct funding. I believe they do have the capacity to 
administer these projects.
    The Chairman. Thank you. I would like to extend a further 
question to both of you. Can you describe the impact the road 
condition and lack of adequate infrastructure have on a Tribe's 
ability to create jobs and attract economic development to 
Native communities? Mr. Keel?
    Mr. Keel. Thank you, Mr. Chairman.
    Once again, there are Tribes that have the capacity, as I 
said, to develop, have economic development within their areas. 
It is very difficult to attract businesses to the reservation 
or to our areas when the infrastructure is seemingly not very 
well maintained or unkempt or in disarray.
    So the answer is, a well-maintained transportation system 
is vital to economic development in Indian Country or anywhere 
else, for that matter.
    The Chairman. Thank you. Mr. Healy?
    Mr. Healy. Thank you. I would agree with that. Many 
businesses, when they want to locate to a reservation, one of 
the first things they research is your transportation system 
and how they can move their goods and services from Point A to 
Point B. Of course, sometimes they make a site visit. If in 
their mind they feel the transportation infrastructure system, 
roads, are not up to their standard, they may go down the road 
and go somewhere else, which of course affects economic 
development initiatives.
    So yes, I believe maintaining a good, safe transportation 
system is vital, not only to economic development but for the 
safety of our children. As was mentioned, safety is a key issue 
for Indian Country, as well as the ambulances traveling these 
roads, school buses. So yes, I do believe it is very important. 
Thank you.
    The Chairman. Thank you, thank you very much.
    And now I would like to call on Senator Hoeven for any 
comments or questions he may have for our witnesses.

                STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Hoeven. Thank you, Mr. Chairman. I would like to 
thank both of these gentlemen for being here with us today. I 
will start by asking Mr. Keel to just talk a little bit about 
what he perceives as both the real needs in terms of 
transportation on the reservations and how we can most 
effectively address it.
    Mr. Keel. Well, as has already been stated, the needs in 
Indian Country on particularly our reservation roads, because 
of the bridges that are structurally deficient, it affects not 
only the safety or our ability to attract businesses to our 
communities, but the fact of the matter is that many of our 
people depend on those roads. Some of our citizens don't have 
adequate transportation to get to and from work.
    So the needs there are multiplied by the fact that when a 
bridge or road washes out, for instance, or we have a natural 
disaster, we don't have the funding to maintain or repair those 
roads in a timely manner. Those needs then are exacerbated. So 
the need cannot be understated.
    I would like to point out also that last week, the 
President proposed in the American Jobs Act the establishment 
of a national infrastructure bank. We believe that a Tribal 
infrastructure bank would work, thereby giving the Tribes the 
ability to leverage dollars that we receive. We would propose a 
$10 million bank, which is relatively small in terms of a bank. 
But for Indian Country, it would be significant in that we 
could take that and leverage those dollars and make some 
improvements, necessary improvements that we have.
    I hope that answers your question.
    Senator Hoeven. And I would just follow up with a question 
actually to both of you gentlemen. In addition to Federal funds 
for roads, do you have any other funding sources, are there any 
local or State funding sources that any of the Tribes receive 
to help on their roads?
    Mr. Healy. For Tribes in the rural areas, the IRR program 
is the only funding source. So being from a rural area, in 
Montana, the IRR program is very key to our sustainability as a 
Tribe, as a nation, as a people. It is very key to our 
livelihood.
    Senator Hoeven. Mr. Keel, are you aware of any other? Have 
any of the Tribes developed any other funding sources that you 
are aware of?
    Mr. Keel. Many of the Tribes today supplement the funding 
that they receive, even through the Indian Reservation Roads 
program. There are Tribes that have a good relationship, as I 
stated earlier, with their State departments of transportation 
and local county commissioners. And they are able to repair, 
make repairs locally in some cases. But not necessarily from 
funding, they simply supplement the funding that they receive.
    Senator Hoeven. The reason I ask is, in the State of North 
Dakota, one of the things we have done is that the State gas 
tax, the portion that is collected on the reservations goes 
back to the reservations. So they have that as a funding source 
in our State. I am just wondering if other States and other 
Tribes have developed some funding sources to help, given the 
pressure on Federal dollars. Particularly when we are talking 
about some of the rural reservations, where you have so many 
miles of road and not a large number of people. It is a real 
challenge to maintain those roads.
    So that is why I was just looking for any other ideas at 
the local, State, or Tribal level. Are there any other ideas 
that either of you might be aware of to help fund roads, in 
addition to the Federal funds?
    Mr. Keel. Yes, in fact, there is very limited funding. In 
the State of Oklahoma, for instance, there is an agreement, or 
compacts, there are several Tribes that have compacts with the 
State in terms of collecting the Federal gasoline tax, for 
instance. Those funds are then returned to the Tribes and they 
can use that for a variety of things. But they are very 
specific in what they can be used for, health, education and in 
some cases transportation and safety.
    Senator Hoeven. Right. That is exactly the kind of thing I 
was referring to. I was just wondering if there are any others 
that either one of you had run cross.
    Mr. Keel. I am not aware of any.
    Senator Hoeven. Okay, thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Hoeven.
    I want to thank this panel very much. I have further 
questions that I will send to you and other members may have 
that, too. So I thank you so much, because we are trying to put 
this together and deal with the problem of transportation 
mainly, and with that, of course, jobs for the Tribes. So we 
look forward to keeping in close contact with you and 
continuing to work with you on this.
    So thank you very much, panel two.
    I would like to invite the third panel to the witness 
table. Serving in our third panel is the Honorable Charles W. 
Murphy, Chairman of the Standing Rock Sioux Tribe; the 
Honorable Wes Martel, Co-Chairman of the Joint Business Council 
for the Shoshone and Arapaho Tribes of the Wind River Indian 
Reservation; also Mr. Paulson Chaco, Director of the Division 
of Transportation for the Navajo Nation; and Ms. Jacque 
Hostler, Chief Executive Officer of the Cher-Ae Heights Indian 
Community of the Trinidad Rancheria.
    Mr. Murphy, will you please proceed with your testimony?

 STATEMENT OF HON. CHARLES W. MURPHY, CHAIRMAN, STANDING ROCK 
 SIOUX TRIBE; ACCOMPANIED BY PETE RED TOMAHAWK, TRANSPORTATION 
                            DIRECTOR

    Mr. Murphy. Thank you, Mr. Chairman.
    My name is Charles Murphy. I am the Chairman of the 
Standing Rock Sioux Tribe. I want to thank you, Senator, for 
paving the way for jobs and safety for Native communities.
    I heard testimony earlier, but what I would like to say, 
Mr. Chairman, is that I live on a reservation where we deal 
with several emergencies each day. One of them is that the 
Corps did not mange the water properly going into the community 
or headquarters of Fort Yates, North Dakota. Fort Yates is a 
community that takes care of eight districts within our 2.3 
million acres.
    What happened is if that road should wash out, we would 
lose emergency, health needs, water needs to several of our 
district people. Number one is that roads is the number one 
thing for our reservation. They play a big part within Standing 
Rock.
    Because our reservation is so large, we have to use snow 
plows in the winter time to take the ambulance out to bring our 
people into the hospital into Fort Yates, which sometimes may 
be a round trip of 180 miles.
    The other thing, Mr. Chairman, is that we have bridges that 
are over 50 years old. Because of the high floods, high water, 
we had knocked the pillars down or the joists. We had to have 
our kids walk across the bridge so that way we do not have 
anything happen to our kids, so we can get our kids to school 
and back from school.
    Mr. Chairman, if there is any way that we could get funding 
directly to the Tribes without going through all the other 
branches I think that we would have a better and safer place to 
live within our reservations and also create more jobs within 
our reservation. We have, again, we have dialysis people that 
we have to worry about, not only in the summer time, but in the 
winter time. Like I stated earlier, if that road should wash 
out, we would have been, and Bismarck would not have been able 
to take those 64 people that were on dialysis, too. So there 
was no way for us to get them off this island.
    So with that, Mr. Chairman, I have written testimony and I 
support what was said earlier about direct funding to Tribes. 
And we need more infrastructure on our reservation. Thank you.
    [The prepared statement of Mr. Murphy follows:]

 Prepared Statement of Hon. Charles W. Murphy, Chairman, Standing Rock 
                              Sioux Tribe
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you very much.
    Senator Hoeven?
    Senator Hoeven. Mr. Chairman, if I may, I have a meeting of 
our appropriations committee at the same time, and the 
subcommittee of which I am ranking member has to present 
subcommittee budget for legislative branch, which, Mr. 
Chairman, you know that is pretty important, so that we address 
that. Since I will have to leave in a few minutes, if I could, 
take just a minute to say a few words about Chairman Murphy.
    The Chairman. Please proceed, Senator Hoeven.
    Senator Hoeven. Thank you.
    I want to welcome all of our guests, but I would like to 
say just a few words about Chairman Murphy. I think that 
Chairman Murphy is now serving his sixth term as the Chairman 
of the Standing Rock people. I have had the wonderful good 
fortune to work with him for over a decade now.
    It is very appropriate that he is here talking about 
transportation today, because he was an absolute leader in our 
State of North Dakota in transportation. And he is right, his 
reservation used to be Fort Yates, now it is Standing Rock 
Reservation, which covers a big part of two States, both in 
North Dakota and in South Dakota. So geographically, it is 
very, very large, and the Missouri River runs through the area 
they serve, so there are many challenges geographically.
    And one of the things that Chairman Murphy did is that he 
was instrumental in putting together an agreement with the 
individual who was governor before I was Governor Schafer, that 
really provided a collaborative working agreement between the 
reservation, the Tribe and the counties throughout the entire 
area. So that when it came to maintaining roads, plowing roads, 
getting snow off the roads, and addressing a lot of these 
issues, they had a cooperative agreement so that they could 
work together on the roads, both on-reservation and off, which 
was frankly a very cost-effective way to do it.
    It was his leadership in setting up those types of 
agreements that really led us to gas tax agreements with all 
the Tribes in North Dakota. And we have parts, or all, of five 
reservations in our State, and many Tribes. It was that 
leadership that led to resources going not only to his own 
people at Standing Rock, but to all of the Tribes, because it 
was the model of the cooperative road maintenance agreement 
that we followed.
    Chairman Murphy is a Vietnam veteran. He is somebody who 
has been a leader not just to his people on his reservation in 
North Dakota and South Dakota, but a State leader in North 
Dakota. So when we talk about somebody who has great respect, 
Chairman Murphy has great respect. When he is here talking 
about transportation issues, he is somebody who isn't just here 
talking about them, he is dealing with them every single day, 
between floods, tornadoes, and fires. We have been out there 
fighting fires with Blackhawk helicopters and pulling water out 
of the Missouri River.
    And here he is again, although he is a young man still in 
his sixth term, again leading the Standing Rock Sioux and doing 
a great job. So it is wonderful to have you here.
    Mr. Murphy. Thank you.
    Senator Hoeven. I know one of the points that you are going 
to make, and I would like to emphasize it as well, Mr. 
Chairman. We have to do everything we can with the dollars we 
have. It is hard right now, because we are in a financially 
difficult situation.
    So every dollar we use, we have to use as effectively as we 
can. I think one of the ways to use them most effectively is 
exactly what you and I talked about last week when I was home, 
and I know you will be here talking about it today, and I hope, 
Chairman Akaka, that you have an opportunity to hear more from 
Chairman Murphy. We have to make sure those dollars get to the 
local leaders like Chairman Murphy, so that they can use them 
for best effect on the reservation.
    So we have challenges with dollars, and of course we have 
so many miles of road in areas that are not heavily populated. 
In our case we also have energy impacts, where we have a lot of 
traffic and big trucks running on these roads that put ruts in 
them and can make them more dangerous. Both from a traffic 
standpoint and from a wear on the roads standpoint, it is 
really important that we get these dollars to the local leaders 
like Chairman Murphy.
    Any way we can work to do that and streamline the process 
through Interior and through BIA to get those dollars down to 
the local leaders is very important. I think there may be some 
ways we can work on that, and I look forward to working with 
you on it. Chairman Murphy, I hope as you have time to present 
more testimony that you are able to go into that a little bit. 
I think it is a very good idea. It is an idea that you brought 
to me and I very much agree with, and I want to help you to do 
all we can in that regard.
    It is certainly true in transportation, it is true in other 
areas, too, health services and so forth. But certainly 
transportation, if we can get those dollars to the local level. 
And then too, following up on the question I asked the earlier 
panel, leverage those dollars. For example, where you have been 
able to bring in local gas tax dollars and work with the State 
and the counties to leverage those dollars, I think you have 
really been a leader there and I hope we can do more of those 
things.
    Thank you for being here, Chairman Murphy. Thank you to our 
other panel members for being here. Mr. Chairman, thank you for 
letting me present for just a minute.
    The Chairman. Senator Hoeven, thank you for being here, and 
thank you for your comments. I have to say, thank you for your 
sound advice. It is for sure that we need to try to use 
whatever funds we have as wisely as we can. And I think this is 
a point in time when we can do that. So we have to do it 
together. I look forward to working with Senator Hoeven and our 
other members and with also you and the Tribes. So thank you 
very much for your comments.
    Now let me go on to our next witness, Mr. Martel, for your 
testimony, please.

         STATEMENT OF HON. WES MARTEL, VICE CHAIRMAN, 
     EASTERN SHOSHONE BUSINESS COUNCIL; ACCOMPANIED BY JIM 
SHAKESPEARE, CHAIRMAN, NORTHERN ARAPAHO BUSINESS COUNCIL, JOHN 
                   P. SMITH, TRANSPORTATION 
          DIRECTOR, SHOSHONE AND ARAPAHO TRIBES, AND 
        JIM GARRIGAN, TRANSPORTATION PLANNER, RED LAKE 
                    BAND OF CHIPPEWA INDIANS

    Mr. Martel. Good afternoon, Mr. Chairman and members of the 
Committee. My name is Wes Martel and I am the Co-Chairman of 
the Eastern Shoshone Tribe, Wind River Reservation, in Wyoming.
    On behalf of the Joint Business Council of the Eastern 
Shoshone Tribe and the Northern Arapaho Tribe of the Wind River 
Reservation, I thank you for this opportunity to provide 
testimony concerning transportation issues in Indian Country. I 
also am pleased that Chairman Jim Shakespeare, from the 
Northern Arapaho Tribe, is accompanying me today, as is John 
Smith and Jim Garrigan, who are our transportation technical 
support team.
    I am pleased that our Senator Barrasso and his keen 
understanding of our issues and concerns helps provide input 
and dialogue between the Tribe and the Select Committee. I will 
now summarize my remarks.
    The Federal Lands Highway Program and Indian Reservation 
Roads program represents for us a major avenue through which 
the United States Government fulfills its trust 
responsibilities and honors its obligations to the Wind River 
Tribes and to other Indian Tribes. This program is vital to the 
well-being of all Native people living on Indian lands 
throughout the United States. Because of its great importance, 
reform of the Indian Reservation Roads program has become a top 
legislative priority for many Tribes.
    While Congress has been responsive, it is painful for me to 
tell you that the manner by which the BIA allocates money 
through the IRR system has become a disaster. For our 2.2 
million acre reservation, it is not doing what Congress 
intended to do when you enacted SAFETEA-LU. We pray that the 
leaders of this Committee, who have helped pass highway bills 
for the benefit of Tribes will once again weigh in and help fix 
the formula problems that the BIA seems incapable of fixing 
itself.
    BIA officials have turned a blind eye to the fact that 
millions and millions of IRR funds are being diverted, 
sometimes through illegal and fraudulent fashion, to non-BIA 
and non-Tribal roads. These actions are also contrary to the 
trust responsibility the BIA owes my Tribes.
    For the past six years, the Council of Large Land-Based 
Tribes has been attempting to correct the misinterpretation and 
misapplication by the BIA and the Federal Highway 
Administration of the enacted regulation of the Indian roads 
program as contained in 25 C.F.R. 170. This misinterpretation 
and misapplication manifested itself as the uncontrolled 
implementation of the road inventory update process which is 
used to generate formula shares for all Tribes.
    Because of this uncontrolled implementation of the 
inventory update process, that part of the inventory which 
generates formula shares amounts for the land-based Tribes has 
been reduced significantly from 76 percent in 2006 to less than 
20 percent in 2011, and is declining at an alarming rate.
    Mr. Chairman, I ask you to consider the implications of 
this incredible situation. Only 20 percent of the money 
Congress appropriates for Indian Reservation Road program is 
being used on BIA and Tribal reservation roads. Surely this is 
not what Congress intended.
    You will hear from the BIA that the problems identified 
above are as a result of a negotiated rulemaking process. First 
of all, that process was flawed. But as importantly, it must be 
noted that after the rulemaking committee issued its 
recommendations, the BIA took those recommendations and on 
their own, arbitrarily and unilaterally made changes before 
they were finalized and placed in the Federal Register. The 
impact of those changes resulted in reducing the funding 
allocations as much as 60 percent to land-based Tribes by 
allowing some Tribes to indiscriminately add State, county 
roads and proposed roads into their IRR inventory without 
justification.
    Roads on Indian reservations are considered Federal roads 
due to the fact that the Indian reservations are considered 
Federal lands and the Federal Government is responsible for 
constructing and maintaining these roads. State and county 
roads are not considered Federal roads, and they have separate 
funding sources and should not be siphoning off critical 
funding meant for Indian reservations.
    To allow the diversion of funds away from land-based 
reservations to continue is a travesty, and land-based Tribes 
will never be able to reduce the tragic statistics that are 
discussed in previous testimony and testimony that we will be 
submitting in our written presentations. Allowing State and 
county roads into the IRR system simply to generate funding is 
siphoning off critical road construction funding for Tribes 
whose only source of funding is the IRR program.
    Based on the above, the Wind River Tribes have identified 
several items that must be incorporated into a new 
reauthorization bill in order to make 25 C.F.R. 170 a usable 
rule. Replace the Tribal Transportation Allocation Methodology, 
TTAM. The Tribal Transportation Allocation Methodology, TTAM, 
as contained in 25 C.F.R. 170, has been so misconstrued by BIA, 
TTAM, that it favors only those direct service Tribes whose 
trust lands are surrounded by high volume State and county 
roads, and it has resulted in pitting Tribes against Tribes.
    The most fair and equitable solution to the problem is for 
the Secretary of Interior to suspend 25 C.F.R. 170 until it be 
corrected to reflect the actual intent of Congress. The 
previous rule should be temporarily put into effect during the 
time period that the existing rule is scrutinized.
    Define access. The current statute and regulation does not 
define access, nor does it place any limit onto what extent the 
route can be included in the IRR inventory. Because of this 
ambiguity, the Bureau of Indian Affairs is allowing tens of 
thousands of non-BIA miles or non-Tribal system routes into the 
IRR inventory. These routes include interstate highways, 
national highway system roads, State, county and township 
roads, Federal forest roads and proposed roads. Most of these 
routes are not located within nor do they provide access to 
Indian or Native lands, with some even roadless and wilderness 
areas. Some BIA regional road engineers are allowing this abuse 
and others are prohibiting it as they believe such annexing is 
not allowed.
    Restrict proposed roads into IRR inventory. Proposed roads 
are being added indiscriminately to the IRR system. The BIA and 
the Federal Highway Administration are allowing thousands of 
miles of proposed roads into the IRR inventory only to generate 
huge funding amounts.
    Establish an IRR inventory oversight committee. From the 
uncontrolled and indiscriminate manner in which inventory is 
being added into the IRR inventory, 33 plus thousand miles in 
2004, now in 2011 that is 140,000 miles, it is obvious that 
neither the BIA nor the Federal Highways are providing any 
quality control or quality assurance of the inventory data that 
is being used to calculate funding for IRR distribution.
    An inventory oversight committee made up of Tribal 
transportation officials must be established to monitor the 
inventory data that is being submitted. This committee will 
review all inventory data and will decide what data is eligible 
to be included into the official inventory.
    The Chairman. Mr. Martel, will you please summarize your 
statement?
    Mr. Martel. It seems inevitable, the only practical 
solution we see for this problem is that since the roads on the 
BIA system are considered Federal roads, we must look at other 
options to get that funding in there. We want to work with 
Congress any way we can to get that in place.
    Thank you for inviting us to give testimony. If we can 
answer any questions, we will be glad to do that.
    [The prepared statement of Mr. Martel follows:]

Prepared Statement of Hon. Wes Martel, Vice Chairman, Eastern Shoshone 
                            Business Council
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you. All of your full statements will 
be placed in the record.
    Mr. Chaco, will you please proceed with your testimony.

 STATEMENT OF PAULSON CHACO, DIVISION DIRECTOR, NAVAJO NATION 
                   DIVISION OF TRANSPORTATION

    Mr. Chaco. Good afternoon, Mr. Chairman and esteemed 
members of the Committee.
    My name is Paulson Chaco and I am the Director for the 
Navajo Nation Division of Transportation. Today I would like to 
speak with you about four major concerns of Navajo Nation 
transportation.
    First, I will discuss the issue of direct funding, followed 
by job creation and road maintenance. And briefly ending with 
the Navajo Nation's great concern with Question 10 of 25 
C.F.R., Part 170, regarding the definition of Indian 
Reservation Roads.
    The Navajo Nation has gone to great measures over the years 
to create a sophisticated level of government and ensure 
quality public service for the Navajo people and everyone who 
may be guests on Navajo land. As a people and a nation, we 
continue to grow and progress, continually looking forward to 
the emerging global economy to pave a path for the Navajo 
people.
    However, in 2011, our Nation finds itself being held to a 
different set of standards. And in many regards, second class 
citizens. While the United States has made great strides to 
foster a more positive relationship with Tribal nations, there 
are still improvements to be made.
    Perhaps the greatest issue facing the Navajo Nation is 
access to direct funding. Many programs, such as the TIGER 
grants, transit, emergency relief for federally-owned roads and 
safety grants are not truly available to Tribes unless we have 
partnered with a State. We ask the question, why is this?
    The Navajo Division of Transportation is a sophisticated 
and quality public service. There is no reason we should not 
have the ability to apply for all the same funding as any State 
in the Union. Allowing the Navajo Nation access to direct 
funding will allow for greater oversight in planning and 
management. Additionally, the decision where the funding is to 
be utilized will rest in the hands of the Navajo Nation, 
allowing for more services to be provided in the areas not of 
interest to any particular State Government.
    My division is tasked with the construction and maintenance 
of roads. Many of these roads are the only access our people 
may have for public service and basic human necessities. Yet 
today we find ourselves at the mercy of other departments of 
transportation. This is an issue that clearly needs to be 
addressed through legislation, so that the Navajo Nation and 
other Tribal nations can begin to acquire direct access to 
transportation funding.
    Job creation is an integral part of the Navajo's current 
agenda, just as it is across the entire Nation. Unlike the 
majority of the Country, Navajo and other rural or large land-
based Tribes have a unique problem. Tribal members lack access 
to job opportunities because of inadequate roadways. For 2011, 
the Navajo Nation used ARRA funding for eight separate road 
projects on the Navajo Nation, including Western Agency, 
Eastern Agency, Fort Defiance and Shiprock. All funding was 
used within the allotted time frame and to date, all projects 
are completed.
    This funding was instrumental not only in creating Navajo 
construction jobs, but secondary industries as well, 
specifically merchants and food vendors saw an increase in 
revenue from our presence, and the creation of roads allowed 
more people more efficient access to job opportunities 
throughout the Navajo Nation.
    Additionally, many of the social ills that plague Native 
American communities are a direct result of unemployment and 
lack of job opportunities. As roads are created and employment 
and access to opportunities increases, we have a greater 
ability to curtail these countless social problems that have 
hurt so many of our community members.
    While road creation does assist the Navajo people in 
accessing employment opportunities, receiving all forms of 
public service and obtaining basic human necessities, it is 
only half the battle. Once the roads are built, the question 
for the Navajo Nation and all Tribes is, how do we maintain 
them? Currently the transportation funding received by the 
Navajo Nation is never specifically for road maintenance, 
meaning that the roads can be built, but not maintained. This 
is a major obstacle for the Navajo Nation.
    Unlike State governments that have an array of methods for 
generating revenue to assist in road maintenance, the Navajo 
Nation is not so fortunate. This is not a problem unique to the 
Navajo, but is a reality across Indian Country and stems from 
systematic inequalities in taxation, taxation methods, economic 
development. Until the underlying issues are addressed, 
discretionary transportation funding needs to also include road 
maintenance.
    Mr. Chairman, it is common knowledge throughout Indian 
Country that there is a growing great concern over the 
definition of Indian Reservation Roads for transportation. 
Funding purposes specifically proposed an access road as 
described in 25 C.F.R. Part 170. While I will not go into great 
length on this issue, I will state that the Navajo Nation does 
firmly believe that the roads which are continuously and 
systematically maintained by the State and county governments 
should be excluded from the definition of true Indian 
reservation roads.
    In conclusion, Mr. Chairman, I would like to reiterate that 
the Navajo Nation hopes to see greater access to direct funding 
which in turn allows for greater employment opportunities and 
job creation. Additionally, it is essential to allow separate 
funding based on total number of BIA and Tribal road miles and 
bridges for the road maintenance, and there must be legislation 
addressing the definition of Indian Reservation Roads under 25 
C.F.R. Part 170.
    I would like to thank you, Mr. Chairman Akaka and other 
esteemed members of the Committee for inviting me here to 
speak. The Navajo Nation understands that this is a difficult 
economy. Many hard decisions have to be made that will affect 
the great citizens of this great Country.
    However, when it comes to transportation issues, it is 
important to remember that in order to grow and progress, there 
must be a path for people to follow. Without this path, there 
is no greater destination for the people than the circumstances 
in which they currently live. Thank you.
    [The prepared statement of Mr. Chaco follows:]

 Prepared Statement of Paulson Chaco, Division Director, Navajo Nation 
                       Division of Transportation
    Good Afternoon Mr. Chairman and esteemed members of the Committee;
    My name is Paulson Chaco and I am the Division Director for the 
Navajo Nation Division of Transportation. Today I would like to speak 
to you about four major concerns that the Navajo Nation has regarding 
transportation. First, I will discuss the issue of Direct Funding, 
followed by Job Creation and Road Maintenance, and briefly ending with 
the Navajo Nation's concerns with question 10 of 25 CFR part 170 
regarding the definition of Indian Reservation Roads.
    The Navajo Nation has gone to great measures over the years to 
create a sophisticated level of government and ensure quality public 
services for the Navajo people and everyone who may be guests on Navajo 
Land. As a people and a Nation we continue to grow and progress, 
continually looking forward in this emerging global economy to pave a 
path for the Navajo people. However, in 2011, our Nation still finds 
itself being held to a different set of standards and in many regards 
as second---class citizens. While the United States has made great 
strides to foster a more positive relationship with Tribal Nations 
there are still improvements to be made.
Direct Funding
    Perhaps the greatest issue that faces Navajo Transportation is 
access to direct funding.
    Many programs such as TIGER GRANTS, TRANSIT, EMERGENCY RELIEF FOR 
FEDERALLY OWNED ROADS and SAFETY GRANTS are not truly available to 
Tribes unless they have partnered with a State. Why is this? The Navajo 
Nation Division of Transportation is a sophisticated and quality public 
service. There is no reason that we should not have the ability to 
apply for all the same funding as any state in the union. Allowing the 
Navajo Nation access to direct funding will allow for greater oversight 
in planning and management of funding. Additionally, the decision of 
where the funding is to be utilized will rest in the hands of the 
Navajo Nation, allowing for more services to be provided in areas not 
of interest to any particular state government.
    My Division is tasked with the construction and maintenance of 
Navajo roads. Many of these roads are the only access our people may 
have for public services and basic human necessities. Yet today, we 
still find ourselves at the mercy of other departments of 
transportation. This is an issue that clearly needs to be addressed 
through legislation so that the Navajo Nation and other Tribal Nations 
can begin to acquire direct access to Transportation funding.
Job Creation
    Job creation is an integral part of the Navajo Nation's current 
agenda, just as it is across the entire Nation. Unlike the majority of 
the Country, Navajo and other rural or large land-based Tribes have a 
unique problem: Tribal member access to job opportunities because of 
inadequate roadways.
    For 2011, the Navajo Nation used A.R.R.A funding for eight separate 
road projects in the Western Agency, Eastern Agency, Fort Defiance and 
Shiprock. All funding was used within the allotted timeframe and to 
date all projects are completed. This funding was instrumental in not 
only creating Navajo construction jobs but in secondary industries as 
well. Specifically, merchants and food vendors saw an increase in 
revenues from our presence and the creation of roads allowed people 
more efficient access to job opportunities throughout the Navajo 
Nation. Additionally, many of the social ills that plague Native 
American communities are a direct result of unemployment and lack of 
opportunity. As roads are created, and employment and access to 
opportunities increase, we have a greater ability to curtail these 
countless social problems that have hurt so many in our community.
Road Maintenance
    While road creation does assist The Navajo Nation people in 
accessing employment opportunities, receiving all forms of public 
services and obtaining basic human necessities, it is only half the 
battle. Once the roads are built the question for the Navajo Nation, 
and all Tribes, is ``how do we maintain them? ''
    Currently, transportation funding received by the Navajo Nation is 
never earmarked for road maintenance, meaning that the roads can be 
built but not maintained. This is a major obstacle for the Navajo 
Nation. Unlike State Governments that have an array of methods for 
generating revenue to assist in road maintenance, the Navajo Nation is 
not so fortunate. This is not a problem that is unique to the Navajo, 
but is a reality across Indian Country and stems from systematic 
inequalities in taxation methods and economic development. Until those 
underlying issues are addressed, discretionary transportation funding 
needs to also include road maintenance.
Defining Indian Reservation Roads Under Question 10 Of 25 CFR Part 170
    It is common knowledge throughout Indian Country that there is a 
growing concern over the definition of an ``Indian Reservation Road'' 
for Transportation funding purposes, specifically proposed and access 
roads as described in 25 CFR Part 170. While I will not go into great 
length on this issue--I will state that the Navajo Nation does firmly 
believe that roads, which are continuously and systematically 
maintained by State and County governments, should be excluded from the 
definition of a true ``Indian Reservation Road.''
Conclusion
    In conclusion, I would like to reiterate that the Navajo Nation 
hopes to see greater access to direct funding, which in turn allows for 
greater employment opportunities and job creation. Additionally, it is 
essential to allow separate funding based on the total number of BIA 
and Tribal road miles and bridges for Road Maintenance and there must 
be legislation addressing the definition of Indian Reservation Roads 
under 25 CFR Part 170.
    I would like to thank Chairman Akaka and the other esteemed members 
of the Committee for inviting me here to speak today. The Navajo Nation 
understands that in this difficult economy many hard decisions are to 
be made that will affect all citizens of our great Country. However, 
when it comes to Transportation issues it is important to remember that 
in order to grow and progress there must be a path for people to 
follow. Without this path, there is no greater destination for them 
than the circumstances in which they currently live. Thank you.

    The Chairman. Thank you very much, Mr. Chaco, for your 
testimony.
    Ms. Hostler, will you please proceed with your testimony?

         STATEMENT OF JACQUE HOSTLER, CHIEF EXECUTIVE 
       OFFICER, CHER-AE HEIGHTS INDIAN COMMUNITY OF THE 
                       TRINIDAD RANCHERIA

    Ms. Hostler. Thank you, Senator Akaka. It is my extreme 
honor and pleasure to be here today. My name is Jacque Hostler. 
I am the Chief Executive Officer of the Cher-Ae Heights Indian 
Community of the Trinidad Rancheria in Northern California.
    I am honored to present this testimony on behalf of my 
Tribal chairman, who sends his greetings, the Honorable Garth 
Sundberg, and the Tribal council of the Trinidad Rancheria, as 
well as the Northern California Tribal Chairmen's Association, 
representing 11 Tribes.
    My testimony is informed by my experience in the 
construction industry as well as my experience in building 
capacity and infrastructure in Indian Country for Tribal 
governments and my family, who are Hoopa Tribal members. My 
testimony honors my deceased husband today, who was a Hoopa 
Tribal councilman. He began the first transit program for his 
Tribe in 1987. Today the Hoopa Tribe, the Yurok Tribe and the 
Karuk Tribe partner with a local provider to provide 
transportation to Tribal members that cover an area of 
approximately 150 miles spanning three reservations and three 
rivers. This is one of the numerous success stories, due to 
perseverance and the determination of SAFETEA-LU.
    Lives are lost in Northern California on roads, as well, 
that are not maintained and safety issues are not addressed. 
Services are over one and two hours away to medical facilities. 
We need your understanding and help, as well. We need your 
commitment to work with us to protect the Tribal transportation 
gains made in the last seven years. As we continue to address 
the critical issues across Indian lands, both large and small 
land-based Tribes. We understand that.
    As the Committee is well aware, the unmet transportation 
needs have been discussed, the $69 billion unmet transportation 
infrastructure need in Indian Country, while the IRR program 
receives $454 million per year. Through SAFETEA-LU's funding, 
increases to the Indian Reservation Roads program and program 
enhancements, Tribes have been able to build lasting 
improvements that have positively impacted Indian Country. The 
IRR program, in conjunction with other Federal transportation 
programs, has enabled Indian Tribes to build critical capacity 
and deliver major projects that have improved the safety of 
Tribal communities and have brought jobs to Tribal members and 
the local community.
    California has one of the largest Native American 
populations in the Nation and is home to over 110 Tribes. 
Tribal governments have learned to maximize IRR dollars. I am 
sorry that Senator Hoeven is not here. Because we have had to 
go into our local communities where there have been no monies. 
California's unratified treaties checkerboarded the lands. 
County and State roads do bisect our reservations that the 
lands were taken. We have no control over that. But we still 
have the duty to provide for safe communities for our Tribal 
members and families.
    The economic indicators, we have all talked about that. 
Nearly one quarter of Native Americans live in poverty compared 
to a national average of 11.6 percent. And in Trinidad 
Rancheria, we are located on a remote north coastline. We have 
struggled for some time with a loss of jobs in the logging and 
forest products industry and commercial fishing industry. With 
the Recovery Act, we were able to develop capacity and deliver 
projects. We have a North Coast Tribal Transportation 
Commission that is home to 11 Tribes. And my full testimony 
talks about what those Tribes have accomplished.
    A joint Yurok Tribal-Humboldt County project utilizing 
multiple funding sources including Recovery Act funding, I can 
go on and on. One of the major projects we have been working on 
is a regional marine facility, a pier for Trinidad Rancheria, 
that promotes the economy. We are driving piles as we speak.
    By working together, Tribal programs are leveraging their 
internal capacity. And by coordinating with State and regional 
agencies, we are able to leverage our funding resources and 
plan projects that are mutually beneficial. Separately, we 
cannot be effective. Together, we cross over and leverage our 
funds, save lives, create jobs and improve our communities.
    On the North Coast, the Tribal transportation commission 
has provided technical support to all of the Tribes in our 
region. I have four specific ways I am recommending to improve 
and build upon the successes in SAFETEA-LU, which are, increase 
funding for Tribal transportation, authorizing direct access to 
a broader range of Federal funded programs, to maximize the 
Federal investment and reduce bureaucratic red tape. There are 
ways to save dollars in streamlining the Federal investment and 
also streamlining the environmental review and permitting 
process.
    On behalf of the Trinidad Rancheria, the Northern 
California Tribal Chairmens Association, the California Tribes 
and my Hoopa family, we thank the Committee for this 
opportunity to provide testimony. We look forward to the 
Committee's continued effort to build upon this success in the 
coming transportation reauthorization. And for your dedication, 
Senator Akaka, and your fellow Committee members, to improve 
the lives of Tribal people.
    May God bless you, may God bless the Tribal nations, and 
may God bless America.
    [The prepared statement of Ms. Hostler follows:]

Prepared Statement of Jacque Hostler, Chief Executive Officer, Cher-Ae 
           Heights Indian Community of the Trinidad Rancheria
    Good afternoon Mr. Chairman and honorable members of the Committee 
on Indian Affairs. My name is Jacque Hostler, and I am the Chief 
Executive Officer of the Cher-Ae Heights Indian Community of the 
Trinidad Rancheria (referred to herein as the ``Tribe'' or ``Trinidad 
Rancheria''). I am honored to present this testimony on behalf of the 
Tribe, and I bring the greetings of the Tribal Council and Tribal 
Chairman and thank the Committee for this opportunity. While I am 
providing testimony today solely in my capacity as a representative of 
the Trinidad Rancheria, my testimony is informed by my experience 
serving as the Representative for the Pacific Region and Vice-Chair of 
the Indian Reservation Road Program Coordinating Committee, a 
representative on the Caltrans Tribal Advisory Committee, the 
Chairperson of the North Coast Tribal Transportation Commission, and my 
previous experience as a Tribal transportation coordinator and 
construction manager.
    The Trinidad Rancheria would like to commend the Committee for 
holding this important and timely hearing and for your continued 
attention to Tribal transportation issues. As reflected in the title of 
today's hearing, Tribal transportation is a critical component of 
Tribal economies and Tribal government. Although Indian Tribes continue 
to suffer disproportionately from substantial unmet transportation and 
infrastructure needs, the Indian Reservation Road (IRR) Program, as 
implemented under the Safe, Accountable, Flexible, Efficient 
Transportation Equity Act: A Legacy for Users (SAFETEA-LU), has been an 
important success. The IRR Program in conjunction with other federal 
transportation programs in which Tribes directly participate has 
enabled Indian Tribes to build critical Tribal capacity and deliver 
major transportation projects that improve safety of Tribal 
communities, bring jobs to Tribal members and the community at large, 
support Tribal economic development and enhance the delivery of 
government services. For many Tribes, SAFETEA-LU's funding increases 
and program enhancements have allowed Tribes to build lasting 
improvements that serve the Tribal community in all these sectors. 
Congress' investment in Tribal transportation and infrastructure 
produces solid and meaningful returns and constitutes a critical way 
for Congress to fulfill its unique trust obligations to Indian Tribes.
    The achievements Indian Tribes have generated through SAFETEA-LU 
are vitally important to Indian Tribes, and we must build upon this 
record of success and continue to move forward to build a more 
prosperous and safe future for our Tribal communities. We cannot afford 
any steps backwards.
The Cost of Existing Tribal Transportation and Infrastructure 
        Deficiencies
    As the Committee is well aware, there are tremendous unmet 
transportation and infrastructure needs in Indian country. In order to 
consider how to improve Tribal transportation and infrastructure, we 
must first recognize the current condition of transportation facilities 
on the IRR System and the adverse impacts these unmet transportation 
and infrastructure needs cause to Tribal communities.
    Indian Tribes rely on the roads on the IRR System to travel within 
our communities, to commute to work and school, to access health care. 
Our livelihood and welfare depend on these roads, yet an assessment 
prepared by the Bureau of Indian Affairs (BIA) described the IRR System 
as the most underdeveloped road network in the United States. The BIA 
has further estimated that the backlog of improvement needs for 
selected State and local Indian reservation roads exceeds $11.8 billion 
for BIA-owned roads and 9.1 billion for State, Tribal, and locally 
owned roads. In previous testimony before this Committee, John Baxter, 
Associate Administrator for Federal Lands for the Federal Highway 
Administration (FHWA), observed that these conditions make it very 
difficult for residents of Tribal communities to travel to hospitals, 
stores, schools, and employment centers.
    The BIA further determined that the IRR System is a clear health 
and safety hazard for Tribal communities and an impediment to 
meaningful economic development. A federal traffic safety study shows 
that Indian Tribes suffer the highest per capita traffic facility rates 
in the United States--more than four times the national average. A 
report prepared by the National Highway Traffic Safety Administration 
observed grimly that, although the number of traffic fatalities is 
declining nationally, the number of fatal crashes on Indian 
reservations has increased by 52.5 percent. Data indicate that American 
Indians also have the highest rates of pedestrian injury and death per 
capita of any racial group in the United States. As alarming as these 
statistics are, they do not adequately convey the true human and 
economic toll, which Tribal communities know too well.
    Economic indicators underscore the need for job creation on Indian 
reservations, and Tribal transportation projects can bring not only 
construction jobs but also spur economic growth within Tribal 
communities. Nearly one-quarter of Native Americans live in poverty 
compared to a national average poverty rate of 11.6 percent. The BIA's 
Indian Labor Force Report also calculates that 49 percent of the total 
Indian labor force living on or near reservations was unemployed. The 
economic situation faced by the Trinidad Rancheria reflects these 
statistics. We are located on the remote north coast of California, 
which has struggled for some time with the loss of jobs in the logging 
and forest products industry and the commercial fishing industry. 
Unemployment for the Tribe is 52 percent, and bringing jobs to this 
economically distressed areas is a top priority for the Tribe.
Achievements Realized Under SAFETEA-LU
Expanding Access and Building a Foundation
    Prior to SAFETEA-LU, the IRR Program was a smaller program that 
served a relatively narrow slice of the national Tribal transportation 
needs. Many Tribes, expecially in California, were not able to 
participate directly in the IRR Program and their transportation needs 
were not addressed through the program. Congressional action in TEA-21, 
the IRR Program negotiated rulemaking and funding increases in 
SAFETEALU have opened participation in the IRR Program to all Tribes, 
with funding to be allocated according to relative need and 
construction challenges. The Indian Reservation Road System (IRR 
System) was similarly opened up to include all public roads that 
provide access to Indian reservations and Indian and Alaska Native 
communities, regardless of road ownership.
    These changes have enabled Tribes throughout the United States to 
develop transportation programs to plan and deliver projects that 
tackle long-standing transportation and infrastructure needs. For 
example, on the Trinidad Rancheria, the annual funding we receive from 
the IRR Program has enabled the Tribe, for the first time, to establish 
a Tribal roads department, conduct a thorough inventory of the roads 
eligible for the IRR System, assess the Tribe's transportation and 
infrastructure needs, and develop a Tribal plan to address these needs. 
Thanks to SAFETEA-LU, the Tribe has developed the capacity to 
administer its own roads program through a direct program agreement 
with the FHWA, and, as discussed below, it has allowed us to develop 
major transportation projects and leverage the additional funds 
necessary to deliver these projects. We are also better able to 
coordinate with federal, state and regional transportation agencies.
Planning and Building Projects and Delivering Jobs
    SAFETEA-LU authorizes Tribes to identify their transportation 
needs, develop a Tribal transportation improvement program, and plan 
and deliver transportation infrastructure projects. Indian Tribes have 
used this authority to develop their capacity to carry out these 
functions, and the records maintained under the American Recovery and 
Reinvestment Act (ARRA) demonstrates the internal capacity Tribes have 
established.
    In 2009, Congress appropriated $310 million to the IRR Program (the 
``ARRA IRR Program''), above the annual IRR Program funding for FY 
2009. The BIA and the FHWA have reported that 99 percent of the ARRA 
IRR Program funds were obligated on 518 projects and that 94 percent of 
these funds were obligated through contracts or compacts with Indian 
Tribes. Under the ARRA IRR Program, Indian Tribes developed and 
submitted the ARRA transportation improvement plans to fund 20 bridge 
projects, 1,300 road construction projects covering 1,300 miles of 
road, 17 transit projects, 60 road maintenance projects, and 320 design 
projects. The success of the ARRA IRR Program shows that not only is 
there a great unmet transportation infrastructure need, but that Indian 
Tribes have the capacity to plan and deliver these transportation 
projects.
    The Trinidad Rancheria is pleased to report that the Tribe has 
recently commenced construction of a major transportation 
infrastructure project to replace a deteriorating transportation 
facility--the Trinidad Pier. This project, which is funded through a 
combination of federal, state, and Tribal funds (including the IRR 
Program and the IRR High Priority Program), is currently providing 
significant construction jobs and supporting the employment of local 
and regional suppliers. Moreover, the reconstructed pier will anchor 
the Tribal and local regional economy by supporting the jobs of 
commercial fishermen, recreational fishing businesses, various harbor 
businesses operated by the Tribe (e.g., a restaurant, tackle shop, and 
boat maintenance facilities), and the local hospitality industry. 
Additionally, the project will benefit the unique marine environment in 
Trinidad Harbor and help develop employment in the growing 
environmental tourism industry.
    Below are examples of transportation projects several member Tribes 
of the North Coast Tribal Transportation Commission have delivered, or 
are in the process of delivering, which provide jobs and address the 
significant transportation needs:

  <bullet> The Yurok Tribe's Bald Hill Road Paving Project was a joint 
        Yurok Tribe- Humboldt County project utilizing multiple funding 
        sources, including Recovery Act funding.

  <bullet> The Karuk Tribe receives its IRR funding though a direct 
        agreement with the FHWA. Construction on Itroop Road became a 
        top priority when surface cracks on that road increased to more 
        than 8'' wide and threatened the viability of this sole access 
        route for residents of a multi-unit single family Tribal 
        housing community.

  <bullet> The Smith River Rancheria conducted one of the first 
        Tribally-led Road Safety Audit/Value Engineering (RSA/VE) study 
        in which a state DOT, county government and FHWA fully 
        participated. The study involved on-site field visits and 
        inspections at all hours and in different weather conditions in 
        order to experience, first hand, the road traffic and safety 
        conditions at play.

  <bullet> In the absence of public transit services in its region, the 
        Blue Lake Rancheria Tribe, working closely with CalTrans, the 
        California Highway Patrol, local hospitals and other groups, 
        made public transit a reality. Thanks to funding from FTA's 
        Tribal Transit Program, by 2010, the Tribe was providing 17,000 
        one way rides a year.

  <bullet> The Hoopa Valley Tribe has implemented the Bald Hill 
        Stabilization Project to prevent closure of an emergency exit 
        from the Reservation and avoid a lengthy detour for residents, 
        extended Redwood Grove Road for residential development, and 
        developed a project study to provide crosswalks, sidewalks and 
        medians on the Reservation.

  <bullet> To enhance safety, the Elk Valley Rancheria has designed 
        underpasses and trail corridors to accommodate pedestrians and 
        cyclists crossing highway 101 and is coordinating with a 
        wildlife scientist to incorporate elk crossing features.

    These examples represent a small sample of transportation projects 
being delivered by Indian Tribes. They all highlight the ability of 
rural Tribes to deliver major projects to economically distressed 
areas.
Partnering and Coordination
    Partnerships and coordination among Tribes and between Tribes and 
state and local agencies are a necessity for many Tribes, especially in 
California where the IRR Program funding is relatively limited. 
SAFETEA-LU has provided Tribes with the resources necessary to develop 
such relationships. By working together, Tribal programs are leveraging 
their internal capacity, and by coordinating with state and regional 
agencies, we are able to leverage our funding resources and plan 
projects that are mutually beneficial. On the North Coast of 
California, we have formed the North Coast Tribal Transportation 
Commission, which has eight member Tribes who work together on common 
interests, provide mutual technical assistance, and coordinate with the 
local regional transportation agencies and the California Department of 
Transportation. Our Tribal transportation commission has successfully 
built a number of productive partnerships. The Commission's successful 
collaboration has been recognized by the Director of the California 
Transportation Commission and received a Federal Highways Exemplary 
Human Service Award.
Improving and Building Upon SAFETEA-LU
    While SAFETEA-LU has advanced important policy and program 
opportunities, in many respects it has showed us how much remains to be 
done. Indeed, experience has shown that the funding and scope of Tribal 
programs in SAFETEA-LU are insufficient to make sufficient progress 
addressing transportation needs on the ground. In order to more fully 
address the unmet infrastructure and safety needs of Indian Tribes we 
need to build upon the progress made in SAFETEA-LU.
    For several years a broad cross section of Indian Tribes have 
worked with the National Congress of American Indians (NCAI) and the 
InterTribal Transportation Association (ITA) joint task force to 
develop a consensus set of Tribal priorities for the reauthorization of 
SAFETEA-LU. These consensus priorities are set forth in the National 
Tribal Leadership Paper on Tribal Transportation Priorities (``White 
Paper''), which has been adopted by both NCAI and ITA. The Committee on 
Indian Affairs clearly recognizes the significance of such a broad 
interTribal consensus on these issues, and, in 2009, the Committee 
Chairman released draft legislation which largely tracked these 
provisions. Below are some of the key priorities identified in White 
Paper.
Funding
    While we understand that it is a difficult time to increase funding 
for any government program and that many programs are facing budget 
cuts. However, there is a strong justification providing an increase to 
the IRR Program. In addition to the unmet need, Indian Tribes have 
suffered from historical funding inequities. Although Indian 
Reservation Roads make up nearly three percent of the federal roadways, 
they receive less than 0.5 percent of the total federal highway 
funding. The funding inequities are even sharper when the funding for 
Tribal programs is compared to the funding provided to states. For 
example, at the current funding levels, the IRR Program receives only 
about half the amount per road mile that states receive. Moreover, 
there is evidence that states, who receive federal funding for their 
own roads that fall within reservations, do not fulfill their 
obligation to improve or maintain these roads.
    Any reduction to the IRR Program funding would seriously impair the 
ability of Indian Tribes to deliver actual projects on the ground. 
Under the SAFETEA-LU funding levels for FY 2009, Tribes with relatively 
small transportation programs must coble resources together from a 
number of sources and over several years to carry out solely the design 
and permitting phase of a major project. If IRR Program funding is not 
increased or even diminished, many Tribes may be precluded from 
delivering major projects. Not only would this breach Congress' trust 
obligation to Tribes, it would undermine the Tribal government capacity 
which has been built under SAFETEA-LU.
Direct Access to a Broader Range of Federally Funded Programs
    Transportation safety is DOT's highest priority, yet the data 
clearly indicates that Congress and the Administration have not 
succeeded in reducing the appalling rate of traffic fatalities in 
Indian country. Under SAFETEA-LU Congress authorized $1.275 billion in 
FY 2008 alone for State-administered High Risk Rural Road Program, and 
nearly $700 million for the NHTSA-administered Highway Safety Programs. 
However, Tribal governments, who face the greatest growing highway 
safety problem, have not been able to access these programs. To 
effectively combat the factors that contribute to highway accidents in 
Indian country, Tribes must be provided direct access to these 
programs, and to accomplish this the White Paper recommends 
establishing a two (2) percent Tribal funding set aside within the High 
Risk Rural Roads Program and creating new Tribal traffic safety 
programs with FHWA and the National Highway Transportation Safety 
Administration (NHTSA).
Maximize the Federal Investment
    There is general agreement within Congress and the Administration 
of the need to reduce bureaucratic hurdles that impair efficient 
program administration and to increase program flexibility. This is 
particularly important for Indian Tribes, which have extremely limited 
program budgets. The Indian Self-Determination and Education Assistance 
Act (ISDEAA) has a proven record as an effective and accountable way to 
reduce administrative costs and studies show that programs administered 
under ISDEAA have become engines for economic growth in their 
communities. Congress has sought to extend greater authority to Tribes 
to carry out the Indian Reservation Roads (IRR) Program under ISDEAA 
agreements with the Bureau of Indian Affairs and direct program 
agreements with the Federal Highway Administration. By increasing the 
scope of the programs that can be included in ISDEAA agreements, 
Congress can maximize federal investment in roads infrastructure and to 
put more people to work.
    In particular, we support extending the ISDEAA agreements to all 
Department of Transportation (DOT) programs serving Tribes, including 
programs administered by the Federal Highways Administration (FHWA), 
FHWA-Federal Lands Highway, Federal Transit Administration, National 
Highway Traffic Safety Administration and other federal transportation 
agencies. The FHWA has successfully implemented direct program 
agreements with Tribes, and the program has grown quickly over the last 
two years. Based on this experience, we believe that DOT would be able 
to establish and implement a successful Tribal transportation program 
under the ISDEAA and we support extending such a program to DOT.
Streamline Environmental Review and Permitting Processes
    The Administration and Congress have noted that it takes far too 
long to deliver a transportation project and have indicated support for 
streamlining the environmental review and permitting processes for 
transportation projects. The Trinidad Rancheria wholeheartedly agrees. 
Because many Tribal projects depend on both federal and state funding, 
or involve transportation facilities located on state rights of way, 
Tribes must often comply with overlapping federal and state 
environmental review and permitting requirements, which can delay 
projects for years and result in significant additional costs for even 
modest projects. The Tribe supports the protection of environmental 
resources and we have undertaken several projects to reduce existing 
impacts to the environment. However, there must be balance, and we 
respectfully urge the Committee to work with the Senate Environment and 
Public Works Committee to ensure that Indian Tribes benefit equally 
from any efforts to streamline these requirements for state projects. 
Additionally, Tribal projects should not be burdened with any 
additional state requirements or costs that are not imposed on projects 
implemented by state or local government agencies.
Conclusion
    On behalf of the Trinidad Rancheria, I thank the Committee for your 
continued attention to Tribal transportation issues. Tribal 
transportation is a critical component of Tribal economies and Tribal 
government. The opportunities created by SAFETEA-LU and the Recovery 
Act have led to numerous important successes in which Tribes have 
improved safety of Tribal communities, brought jobs to Tribal members 
and the community at large, supported Tribal economic development and 
enhanced the delivery of government services. We look forward to the 
Committee's continued effort to build upon these successes in the 
coming transportation reauthorization.

    The Chairman. Thank you very much, Ms. Jacque Hostler, for 
your testimony. I want to thank this panel for your testimony 
today.
    As we heard today, and this question is for the entire 
panel, as we heard today, many of the Tribes have had a number 
of natural disasters over the years, which have had significant 
impacts on Tribal roads and bridges. We have heard that from 
other witnesses.
    My question to you is, what recommendations do you have for 
ensuring that Tribes are able to repair and restore their roads 
after natural disasters?
    Mr. Murphy. Mr. Chairman, for the record, can I have Mr. 
Pete Red Tomahawk answer that for our Tribe, the Standing Rock 
Sioux Tribe? Because we have had several of them, and we talked 
about this. I will let him explain that.
    The Chairman. Yes. Thank you. Will you please give your 
name and position?
    Mr. Red Tomahawk. Thank you, Mr. Chairman. My name is Pete 
Red Tomahawk. I am a member of the Standing Rock Sioux Tribe. 
[Greeting in Native tongue]. Good afternoon.
    The Chairman. Good afternoon.
    Mr. Red Tomahawk. I see on your bio your birthday is coming 
up. I want to wish you a happy birthday.
    The Chairman. Mahalo, thank you very much.
    Mr. Red Tomahawk. Mr. Chairman, we have been experiencing a 
lot of disasters. First, we deal with the snow issue, and then 
we get a lot of snow, 18, 20 feet of snow. Our road maintenance 
can't handle that snow.
    We go to the BIA and the BIA, when Mike Black was the 
regional director, he contacted the Rocky Mountain Region, 
their regional director. What they were able to do was contact 
the Tribes within their region. They came together like the 
Blackfeet, Fort Belknap, Fort Peck, the Assiniboine Sioux, the 
Crow, the Northern Cheyenne and all these Tribes came together 
and they brought equipment. And they came down and they helped 
us, not only Standing Rock, but Cheyenne River. We were in 
dire, dire need of help and they came and they helped us. They 
helped us open the roads.
    And them next comes the floods. As soon as the snow melts, 
then we have a lot of water. This year was really bad, because 
of the melted snow. It affected the whole Missouri River. This 
is the first time there is dams on the Missouri River with Fort 
Peck Garrison Dam, the Walhee Dam and Pier, Big Bed in Fort 
Thompson, Fort Randall, the Gavins Point and looking at all 
these dams here. This is the first time, with the Garrison Dam, 
there are 28 spillways. And with the 28 spillways, this is the 
first time all 28 spillways were open
    There were 285,000 CFSs of water coming through the 
spillways. As the water, it was just overwhelming all the 
houses and looking at the community that Senator Hoeven comes 
out of, looking at all that, it was just terrible. And one of 
the Tribes, the Lower Brule Sioux Tribe, they experienced death 
where the water went over the road, and there were two elderly 
ladies thinking that the water just went over the road. And it 
created a huge tunnel underneath and the ladies lost their 
lives. Later on there was another accident that took four more.
    So this flood is really bad, and we are going into the fire 
next. So we have back to back disasters on Standing Rock. That 
is where it is at, Mr. Chairman. Thank you.
    The Chairman. Mr. Martel?
    Mr. Martel. Mr. Chairman, I would like to call on my 
transportation director to update us, but before I do, last 
year we had probably a thousand year flood on our reservation. 
For some reason we got all this rain and snow, and we had a 
real warm spring and all the snow melted at once and wiped out 
one of our major bridges through the main thoroughfare on our 
reservation, destroyed a lot of roads, threatened a lot of 
homes. We were fortunate that we didn't lose any lives but we 
utilized a lot of our local resources, FEMA was there to help 
us. We are one of the reservations that has a pretty decent 
relationship with the Wyoming Department of Transportation. 
They lent their assistance and their expertise to us. But I 
would like to ask our transportation director to give you a 
little more detail on that.
    Mr. Smith. Hapa. That is hello, friend. As far as our 
opportunity this year, like Pete, it is our second year of 
floods. In 2010, we experienced over $2.2 million worth of 
damage to our roads and our bridges. As the Federal agency, the 
emergency Federal aid that was provided to the Tribes, was 
calculated to absorb two bridges that we have suffered huge 
damages with and we have lost one total bridge between our two 
reservation communities, which is the direct access for goods 
and services. I think their Wal-Mart took a big hit last year, 
because we weren't able to get down and have a lot of people.
    And the bridge is passable at this time. Just as we were 
reshaping up our roads and our bridges from last year, because 
the money came in in December and January, where you can't work 
in Wyoming very well, when the ice is flowing and so forth, 
that we were just now cleaning up from the previous year's 
flood damage and we got hit again.
    But several good things have happened with our technology 
that we also use, it is satellite technology and GIS-GPS 
surveying. So we knew where our danger spots were, so we shored 
those up. To this year's damages, we are in the range of 
$300,000. So even though we had more water, we were able to 
absorb a lot of the damages.
    But the unfortunate thing is, as Mr. Red Tomahawk can 
attest, we get the money, but in order to get the money you 
have to spend your existing IRR money. So that doesn't let you 
build many projects that you had planned for in the years ahead 
to get your money back and put those funds back into the 
system. So it really hinders, a double whammy, so to speak, on 
your road projects.
    So we are very limited in projects we could perform this 
year, because we do not have the allocation or the funds 
available. And with the present system of funding as has been 
dribbled out to us in appropriations in a segment process that 
really defeats our long-term process of being able to complete 
our projects. That is a real hindrance, Mr. Chairman. Thank 
you. If I could answer any questions, I will be happy to.
    The Chairman. Thank you very much.
    Mr. Chaco?
    Mr. Chaco. Thank you, Mr. Chairman and members of the 
Committee. The question is, what recommendation. For Navajo, we 
have our testimony, which is related to direct funding. Direct 
funding for basically one is a streamlining of reimbursement 
processes from FEMA. Secondly is the ability for the nations to 
declare their own emergencies. The other one is the ability to 
move the minimum funding requirements within FEMA. Normally 
what happens, I came from a small Tribe, worked for a small 
Tribe. In that case, we literally had to include several Tribes 
in order to meet the qualifications under FEMA regulations.
    So those are the recommendations that I pose forward.
    The fourth is funding in road maintenance. Road maintenance 
is funded under the Department of Interior budget. As other 
Tribes have indicated, that has to be shored up in order to 
maintain our roads, and includes road maintenance and washouts. 
Right now, on Navajo, I have over 50 washouts of culverts as we 
speak. The photos that you see on the pictures here is recent 
rains and recent washouts that we have. We have families that 
can't get across the washout.
    So those are my recommendations, Mr. Chairman. Thank you.
    The Chairman. Thank you so much, Mr. Chaco.
    Ms. Hostler?
    Ms. Hostler. Senator Akaka, I managed over two emergencies 
in the Hoopa Tribe for over three years. It took over a year to 
get funding flowing in. And all of these gentlemen are exactly 
correct: the biggest need is that direct access for immediate 
emergency funds to come into the reservation.
    Currently we have to wait for the Federal Highways 
representative to make it to the reservation. Sometimes that 
takes months. Then we have to wait for the partnership with the 
Federal Highways representative and the regional road engineer. 
That also takes weeks at times. Then we have to expend our own 
maintenance funds, and oftentimes by the winter, those funds 
are already expended. So in order to open roads and to have 
safe passage we have to use any construction funding that may 
be available, which oftentimes is not reimbursed for over a 
year.
    So I concur with all of my colleagues.
    Additionally, those contracts that come through the BIA are 
93-638 contracts and take months to initiate. It is a cost 
reimbursable contract, most of the time. So all of those 
bureaucracies add to the pain and suffering of the Tribal 
members on the reservation.
    The timing of the delivery of funding and again, Mr. Chaco 
just mentioned the BIA maintenance money. If the roads have not 
been maintained properly for any reason, whether it is lack of 
funds or lack of time, those roads are not eligible. Because 
they say, if the maintenance would have been done, those roads 
would be eligible and those assessments can move forward. If I 
didn't have funding to manage 300 miles of roads on the Hoopa 
Tribe, I was only funded at 11 percent of need, then I could 
not, I was not eligible for those roads to be reimbursed for 
emergencies.
    So there is a series of things that need to be corrected in 
coordination with the agencies and that direct access to the 
Tribe. Thank you.
    The Chairman. I thank you very much for your testimonies 
and your responses. And again, I want to express my mahalo to 
the witnesses at today's hearing. The testimony we have heard 
today is very valuable and the Committee will consider it as we 
move forward to draft Tribal transportation legislation.
    I am looking forward to working with my colleagues on the 
Indian Affairs Committee and the other Senate committees that 
deal with transportation issues to make sure that Tribal 
priorities are considered as the Senate moves forward with 
surface transportation reauthorization. So this is what we are 
trying to get into before we arrive there.
    So your responses have been very valuable. Again, mahalo, 
thank you very much. This hearing is adjourned.
    [Whereupon, at 4:10 p.m, the Committee was adjourned.]
                            A P P E N D I X

 Prepared Statement of Michael Hoffman, Vice President, Association of 
                   Village Council Presidents (AVCP)
Introduction
    I wish to thank the Committee, and especially Chairman Akaka and 
Vice Chairman Barrasso, as well as our wonderful Senator on this 
Committee, Lisa Murkowski, for the time and attention the Committee is 
giving to the crucial topic of transportation in Indian Country.
Background
    The Association of Village Council Presidents (AVCP), headquartered 
in Bethel, Alaska, is a Native organization providing social, economic 
and educational services to 56 separate Tribal governments in the 
Yukon-Kuskokwim Delta. Our 56 member Tribes are scattered throughout 
the YK-Delta in an area that is approximately 59,000 square miles and 
roughly the size of the state of Oregon. Our villages are not connected 
by road to one another nor to the rest of Alaska. Our unique geography 
poses great challenges to our efforts to provide safe access to basic 
essential services.
Summary Points--Safety and Access
    AVCP has made it a top Tribal priority to maximize its utilization 
of the authority granted to it in SAFETEA-LU so that our citizens can 
have access to basic services and safe passage on par with the rest of 
America. Access and safety is our goal. For decades, AVCP and the rest 
of Native Alaska were left behind the rest of Indian Country when it 
came to federal support for building transportation systems. As a 
result, our unmet need became overwhelmingly huge. We have begun, 
however, to make significant efforts toward meeting some of that unmet 
need in the past five or six years. SAFETEA-LU has made that possible, 
by placing Alaska Native Tribes at the table with our fellow Tribes 
throughout Indian Country and offering us the opportunity to meet the 
same rules and regulations that applied to other Tribes. Accordingly, 
we have been able to begin to address critical issues that impact the 
health and safety of our people. We strongly urge this Committee to 
ensure that your colleagues do not alter the basic framework that was 
put in place in SAFETEA-LU. We ask that you do everything within your 
power to leverage additional resources to Indian Country because all of 
our unmet needs for access to basic essential services and traffic 
safety make a compelling case for a larger share of federal funding 
when compared to the rest of America.
Funding Formula
    In recent months, the funding formula that is required by SAFETEA-
LU has come under attack by some who believe that it has reallocated 
funding away from true need. We believe the attack is without a basis 
in fact. The funding distribution formula has resulted in an increased 
pool of Indian Reservation Roads (IRR) funding that more precisely 
identifies and addresses actual need for safety and access throughout 
all of Indian Country.
    An example of this is the eligibility of remotely located Native 
villages who, until SAFETEA-LU, had no access to IRR funding for basic 
access to essential health, education and work resources as well as 
important cultural sites. Maintaining the existing statutory and 
regulatory authority for proposed and primary access roads is an 
extremely crucial issue for us, and we urge the Committee to resist all 
calls to alter that framework that has begun to work for all corners of 
Indian Country, especially those in its most remote locations.
Unity is Key
    As we have urged our Tribal leader colleagues in forum after forum, 
we believe it is in all of our best interests to join together to seek, 
in unity, a greater share of the federal funding resources based upon 
our combined unmet need for safe access to essential services, which 
need is far greater than the needs of nearly every other group in 
America.
    Indian Country is, for the most part, located far from the services 
most Americans take for granted. Safe and reliable access to basic 
health care, education, commerce, and employment are a huge challenge 
for most of Indian Country, and together, we can make the best case for 
a greater share of federal resources. When this issue of ``access to 
basic services'' is combined with the issue of how unsafe are the 
transportation systems in much of Indian Country, we should have an 
overwhelming claim to federal resources. Access and safety each 
implicate life and death challenges that daily confront Native 
communities throughout all of Indian Country. Access and safety should 
be the rallying cry for all Indian Tribes and Native communities. We 
urge this Committee to urge its colleagues to strengthen SAFETEA-LU 
rather than weaken it.
Feasibility and Survival
    Any effort to impose a ``feasibility'' standard or other length 
limitation on eligibility is a proposal to forsake entire Native 
communities and thwart Indian self-determination and the right to 
preserve our own ways of life. Writing off entire communities simply 
because they are home to ``too few'' people or are ``too remote'' for 
some urbanites' notions of what is ``inhabitable'' is an affront to 
Native culture and way of life and a direct and repulsive threat to our 
future. We urge the Committee to resist calls to change SAFETEA-LU's 
basic framework of eligible funding distribution formulas and inventory 
eligible for funding. Any effort to place a length limitation on a 
remotely Native village is to once again rule out their participation 
in the IRR program and impede our progress to address critical safety 
issues in our region.
Proposed and Primary Access Routes
    We wish to re-emphasize to the Committee the importance that 
proposed and primary access intermodal routes play in Alaska's very 
underdeveloped transportation infrastructure; especially across the 
large Native land areas that are not served by state or federal road 
systems. Under SAFETEA-LU, we are delivering critical transportation 
plans, projects, and programs to ``undeveloped'' and ``underdeveloped'' 
rural Alaska. We are providing primary access routes that connect our 
people to basic health, education, safety, and employment resources 
that are absolutely vital to the survival of many Tribal citizens who 
struggle to survive across a vast Native land base.
    We oppose the various suggestions that have been proposed that 
would limit funding, including setting a defined mileage length, after 
which a route would generate no funding under the IRR formula. Tribes 
in Alaska collectively have a very unique land base. Any proposed 
solution to any national Tribal issue that is based on land boundaries 
would be fundamentally unworkable in Alaska. For example, one 
suggestion has been to limit funding only to roads that extend no more 
than 15 miles from a reservation boundary or Native village or 
corporation boundary. Such boundaries in Alaska do not correspond with 
transportation needs. They are far removed from population centers and 
have no resemblance to reservation boundaries in the Lower 48. In 
Alaska, where the federal and state highway system is virtually 
nonexistent in most areas, and the unique landscape and land ownership 
is diverse from Tribe to Tribe and region to region, trying to 
implement such a radical proposal in a fair manner would be impossible.
Transportation and Access to Services
    Notably, for purposes of service delivery, the BlA has long 
considered the entire State of Alaska to be a single service delivery 
area without boundaries, with nearly 80,000 Tribal members of 229 
Tribes residing in communities throughout a large land area that is 
over twice the size of Texas and larger than the combined area of the 
22 smallest states. Likewise, the IHS has long considered the entire 
State of Alaska to be one Contract Health Services Delivery Area for 
purposes of providing health care to American Indians and Alaska 
Natives. In providing federal support for transportation services, the 
federal government uses the same approach it uses to provide support 
for BIA and IHS services. Indeed, transportation without boundaries 
throughout all of Alaska is absolutely necessary in order for SAFETEA-
LU to be of use in Alaska. It would be a callous and craven federal 
policy to offer IHS and BIA services without boundaries but then deny 
the supposed beneficiaries transportation access to those services.
Relative Need
    We object to any effort to cap a Tribe's proposed routes by 
limiting the proposed miles funded to no more than 2 percent of the 
miles already built in the Tribe's inventory each year. Such a 
proposal, if implemented, would have a destructive effect on all Tribes 
who, like most of those in Alaska, have only recently become eligible 
to participate in the IRR program under the new authority provided in 
SAFETEA-LU. Before SAFETEA-LU, Alaska Tribes were unable to secure much 
funding because of the way BIA distributed funds. With SAFETEA-LU, and 
its focus on proposed and primary access roads, Alaska Tribes now have 
authority and funding to begin address to decades of neglect and 
isolation from basic human services.
    While most Tribes in the Lower 48 states are likewise relatively 
neglected and isolated, the BIA IRR program and surrounding state and 
county transportation programs have been addressing their 
transportation needs for at least four decades. In Alaska, however, 
Tribes are much further behind not only the rest of America, but also, 
much further behind the Tribes in the Lower 48 states, having had only 
a few years of participation in the IRR program under SAFETEA-LU.
Alaska Offers Opportunity
    By adhering to SAFETEA-LU authority, and by following the rules 
promulgated under it, Alaska regional Tribes and Tribal organizations 
have begun to make great strides toward improving safe and reliable 
access of their citizens to essential services. We are rebuilding 
access to villages for citizens who were forcibly removed by the United 
States decades ago. We are rebuilding access to small, remote villages 
whose way of life deserves to be preserved not abandoned.
    Until SAFETEA-LU, the IRR program allocated very little funding to 
address the staggering transportation needs of Tribes in Alaska. After 
SAFETEA-LU and its Relative Needs Formula that was produced by a 
negotiated rulemaking process in which everyone participated, Alaska 
Tribes in the last several years began to receive a long overdue 
relative needs share of the underfunded IRR program. The increases to 
meet relative needs in Alaska have been lawfully allocated, in 
compliance with the tools and authorities in SAFETEA-LU that are 
available to all Tribes wherever situated. We urge the Committee to 
resist all calls to weaken the SAFETEA-LU statute and instead ask the 
Committee to reauthorize the law so that it can work as intended for 
everyone.
Conclusion
    Transportation needs in Indian Country for safe access to basic 
essential services are much more acute than in the rest of America, and 
the federal funding to meet those needs has been far from sufficient. 
The increases in funding that accompanied SAFETEA-LU were the product 
of a unified voice and approach from all of Indian Country that 
compared the relative needs of Indian Country, including safe access to 
health and other basic services, with the rest of America. We ask the 
Committee to focus on this in its efforts to direct a greater portion 
of federal transportation funding in Indian Country.
    We thank you for this opportunity to speak on this very critical 
issue. There is a lot at stake for us and our Tribal members. Safe 
access to basic services is critical to our survival as a people. We 
hope our diverse voices today will help inform your decisions on 
reauthorization of SAFETEA-LU.
                                 ______
                                 
 Joint Prepared Statement of Julia F. Dorris, President and Loreen J. 
    Steeves, Vice President, Village of Kalskag Traditional Council
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Joint Prepared Statement of Zechariah C. Chaliak, Sr., President and 
   Wassilie Pleasant, Secretary, Native Village of Nunapitchuk (IRA 
                             Council) Tribe
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Prepared Statement of Jon Greendeer, President, Ho-Chunk Nation
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
Prepared Statement of Tex Hall ``Red Tipped Arrow'', Chairman, Mandan, 
    Hidatsa, Arikara, Three Affiliated Tribes, Great Plains Tribal 
                        Chairman's Association 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre></body></html>
